Case: 18-2936

Document: 93-1

Page: 1

Date Filed: Q3/05/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-2936

NICHOLAS EDWARDS,
Appellant
v.
SUPERINTENDENT FOREST SCI;
THE DISTRICT ATTORNEY OF THE COUNTY OF PHILADELPHIA;
THE ATTORNEY GENERAL OF THE COMMONWEALTH OF THE STATE
PENNSYLVANIA
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
(D.C. Civil No. 2:15-cv-05615)
District Judge: Honorable Gerald A. McHugh
i

Submitted Under Third Circuit L.A.R. 34.1(a)
October 23, 2020

Before: CHAGARES, GREENAWAY, JR. and NYGAARD, Circuit Judges.

JUDGMENT

This cause came on to be considered on the record from the Eastern District Court
of Pennsylvania and was submitted pursuant to Third Circuit L.A.R. 34.1(a) on October
23, 2020.

On consideration whereof, it is now hereby ORDERED and ADJUDGED by this
Court that the judgment of the District Court of the Eastern District of Pennsylvania

15.

Case: 1$-2936

Document: 93-1

Page: 2

Date Filed: 03/05/2021

entered August 8, 2018, be and the same is hereby AFFIRMED. Costs shall not be taxed
in this matter. All of the above in accordance with the Opinion of this Court.

ATTEST:

s/ Patricia S. Dodszuweit
Clerk

Dated: March 5, 2021

O

*

ir

a

x

w

Certi^e'd^M^
^ ’/T ■
of a forn^TO;

fecroy’alid issued in lieu
a&f July 16, 2021

I

Teste:

&

Clerk, U.S. Court of Appeals for the Third Circuit

%

16.

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2936
NICHOLAS EDWARDS,
Appellant
v.
SUPERINTENDENT FOREST SCI; THE DISTRICT ATTORNEY OF THE COUNTY
OF PHILADELPHIA; THE ATTORNEY GENERAL OF THE COMMONWEALTH '
OF THE STATE OF PENNSYLVANIA
On Appeal from the United States District Court
For the Eastern District of Pennsylvania
(D.C. Civil. No. 2-15-CV-05615)
District Judge: Honorable Gerald A. McHugh
SUR PETITION FOR REHEARING
Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIB AS,
PORTER, MATEY, PHIPPS and *NYGAARD, Circuit Judges.
ORDER
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

*Judge Nygaard’s vote is limited to panel rehearing only.

17.

BY THE COURT,
s/ Joseph A. Greenaway, Jr.
Circuit Judge
Dated: July 8, 2021
Tmm/cc: Nicholas Edwards
Jennifer O. Andress, Esq.

.18.

*

. Case: 18-2936

Document: 92

Page: 1

Date Filed: 03/05/2021

NOT PRECEDENTIAL

i

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2936
NICHOLAS EDWARDS,
Appellant

?

v.
SUPERINTENDENT FOREST SCI;
THE DISTRICT ATTORNEY OF THE COUNTY OF PHILADELPHIA;
THE ATTORNEY GENERAL OF THE COMMONWEALTH OF THE STATE OF
PENNSYLVANIA

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
(D.C. Civil No. 2:15-cv-05615)
District Judge: Honorable Gerald A. McHugh
Submitted Under Third Circuit L.A.R. 34.1(a)
October 23, 2020
Before: CHAGARES, GREENAWAY, JR. and NYGAARD, Circuit Judges.
(Opinion Filed: March 5, 2021)

V
OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7
does not constitute binding precedent.

;
J

n

Case: 18-2936

Document: 92

Page: 2

Date Filed: 03/05/2021

GREENAWAY, JR., Circuit Judge.
Appellant Nicholas Edwards appeals from the District Court’s denial of his petition
seeking the issuance of a writ of habeas corpus based on ineffective assistance of counsel.
For the reasons that follow, we will affirm.
I.

BACKGROUND
On the evening of July 4, 2003, while standing in front of a house in Philadelphia,

Edwards shot Xavier Edmonds. Travis Hendrick, and Walter Stanton—the witnesses the
prosecution presented at trial—both identified Edwards by name to police within hours of
the shooting. Both witnesses knew Edwards prior to the night of the shooting.
Edwards was arrested shortly thereafter. Following his arrest, Edwards went to trial
by jury in Pennsylvania state court.

Hendrick and Stanton testified during the trial.

Hendrick testified that, a few days before the shooting, he was standing in front of a house
with Edmonds when Edwards, in an effort to protect his drug territory, attacked Hendrick
and Edmonds with a baseball bat and warned them to “stay off his block.” J.A. 377.
Hendrick further testified that on the day of the shooting, he was standing in front of the
same bouse with Edmonds and several others, including Stanton. Hendrick left the group
and started up the steps of the house to use the bathroom, when the sound of slamming
brakes caused him to turn around. When he looked back, Hendrick saw Edwards climb
out of the backseat of a silver car, with a gun, and walk towards the victim. Upon seeing

20

vf

«r

Case: 18-2936

Document: 92

Page: 3

Date Filed: 03/05/2021

Edwards with the gun, Hendrick ran to the back exterior of the house. He heard gunshots
and called the police.
Stanton, the prosecution’s other witness, testified that he was standing outside of
the house with a group of people, including Edmonds, when Edwards drove up in a car,
pulled out a gun from his waistband, and yelled to Edmonds “You think I’m playing,”
before shooting Edmonds twice. J.A. 445. After the shooting, Stanton walked down the
street, where he encountered police, who questioned him about the shooting.
The jury found Edwards guilty of first-degree murder, carrying a firearm without a
license, possessing an instrument of crime, and criminal conspiracy.
Following an unsuccessful direct appeal,

Edwards

sought relief under

Pennsylvania’s Post Conviction Relief Act (“PCRA”), 42 Pa. Cons. Stat. § 9524 et seq.
Counsel was appointed for Edwards, and an amended PCRA petition was submitted on his
behalf, limited to only two issues, neither of which are at issue on this appeal.1 Following
an evidentiary hearing on those issues, the PCRA Court dismissed the petition. The
Superior Court affirmed, and the Pennsylvania Supreme Court denied the allowance of
appeal.
Edwards filed a timely pro se petition for writ of habeas corpus in the United States
District Court for the Eastern District of Pennsylvania, raising twenty-one claims, including

1 In the amended PCRA petition, Edwards’ PCRA counsel only raised two claims:
(1) trial counsel was ineffective for failing to call an alibi witness at trial; and (2) his right
to a prompt trial under Rule 600 of the Pennsylvania Rules of Criminal Procedure was
violated.
%(

Case: 18-2936

Document: 92

Page: 4

Date Filed: 03/05/2021

that trial counsel was deficient for failing to impeach Stanton with two police reports that
were produced during discovery. As relevant to this appeal, one police report recounted a
police officer’s conversation with Stanton at the scene just after the shooting. The report
indicates that Stanton stated that he saw a man get out of a silver car with a gun and walk
toward the victim. Stanton also stated that he had turned the comer of the block before he
heard the shots. The report notes that Stanton recounted that, after the shots were fired, he
returned to the house and found Edmonds on the ground. This account directly contradicts
Stanton’s testimony that he remained at the scene after the shooting and his statement, “I
seen [the shooting] with my own eyes.” J.A. 470.
Regarding the second police report Edwards objects to his counsel not introducing
at trial details of an interview by a different officer. That report states that the officer found
a can of beer in a brown paper bag near the Edmonds’ body, which Stanton2 claimed was
his. This report casts doubt on Stanton’s testimony that he was not drinking alcohol at the
time of the shooting.
The District Court denied Edwards’ petition, finding, in part, that this ineffective
assistance of counsel claim was procedurally defaulted. Edwards appealed, and this Court
granted a certificate of appealability, limited only to issues concerning Edwards’ claim of
ineffective assistance of counsel for failing to impeach Stanton as a witness using the police
reports.

2 The police report refers to “Andre Stanton,” which is the name Stanton falsely
gave to police officers on the night of the shooting.
' <VL \

£

Case: 18-2936 • Document: 92

II.

Page: 5

Date Filed: 03/05/2021

JURISDICTION AND STANDARD OF REVIEW
The District Court had jurisdiction pursuant to 28 U.S.C. §§ 2241 and 2254. We

have jurisdiction under 28 U.S.C. §§ 1291 and 2253. We exercise plenary review over the
District Court’s decision because it did not hold an evidentiary hearing. Abdul-Salaam. v.
Sec’y of Pa. Dep’t of Corr., 895 F.3d 254, 265 (3d Cir. 2018) (citing Robinson v. Beard,
762 F.3d 316, 323 (3d Cir. 2014)). Because the state court never reached the merits of
Edwards’ claims, we review the merits de novo. Jacobs v. Horn, 395 F.3d 92, 110-111
(3d Cir. 2005).
III.

DISCUSSION
Edwards asserts that he is entitled to habeas relief because trial counsel was deficient

for failing to cross-examine Stanton with prior inconsistent statements made to police
officers on the night of the shooting.3 Edwards contends that he suffered prejudice because
the jury’s verdict would have been different had it heard that Stanton told police officers
that he did not see the victim being shot on the night of the crime. Edwards avers that if
Stanton had been impeached in this manner, the jury would have rejected all of Stanton’s
testimony as not credible and reached a not guilty verdict.

3 The Government argues that this ineffective assistance of counsel claim has been
waived; thus, procedural default applies, and such default is not excusable under
Martinez v. Ryan, 566 U.S. 1 (2012). While we acknowledge this procedural default
issue is a close one, because Appellant’s claims fail on the merits, we do not need to
reach this question. See Bronshtein v. Horn, 404 F.3d 700, 728 (3d Cir. 2005)
(determining it unnecessary to determine whether there was procedural default because
“the claims in question lack merit.”).

v,

Case: 18-2936

Document: 92

Page: 6

Date Filed: 03/05/2021

To succeed on his claim that trial counsel’s assistance fell below the standard
guaranteed by the Sixth and Fourteenth Amendments, Edwards “must demonstrate (1) that
counsel’s performance was deficient, in that it failed to meet an objective standard of
reasonableness, and (2) that the petitioner suffered prejudice as a result of the deficiency.”
Blystone v. Horn, 664 F.3d 397, 418 (3d Cir. 2011) (citing Strickland v. Washington, 466
U.S. 668, 687 (1984)). We conclude that Edwards’ ineffective assistance of counsel claim
fails because he can not satisfy the second prong of the Strickland two-part test. See 466
U.S. at 687.

<

To satisfy the second Strickland prong and ultimately prevail on his ineffective
assistance claim, Edwards must “show that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Id. at 694. “A reasonable probability is a probability sufficient to undermine confidence
in the outcome.” Id. To meet this threshold, we must find that “[t]he likelihood of a
different result must be substantial, not just conceivable.” Harrington v. Richter, 562 U.S.
86, 122 (2011) (citing Strickland, 466 U.S. at 693).

Additionally, “[i]n making this

determination, a court hearing an ineffectiveness claim must consider the totality of the
evidence before the judge or jury.” Strickland, 466 U.S. at 695.
Edwards argues that had the jury been presented with the impeachment evidence,
the tenor of the trial would have changed, and he would have been acquitted. Nothing can
be further from the reality of the situation. Edwards’ trial counsel pursued an extensive

2

>

Case: 18-2936

Document: 92

Page: 7

Date Filed: 03/05/2021

and fulsome cross-examination of both Stanton and Hendrick. Counsel highlighted the
various discrepancies both during cross-examination and during closing.
Inconsistencies between Stanton’s and Hendrick’s testimony and other evidence
were apparent.

For instance, Stanton testified that Edwards pulled the gun from his

waistband after exiting the car, while Hendrick testified that Edwards was waiving the gun
from an open car window as the car approached the house. Hendrick testified that the car
was silver, whereas Stanton initially claimed the car was a gray, before switching to
metallic green. Stanton testified that the car “came up slow[ly], doing about five miles per
hour,” App. 449, in direct contradiction to Hendrick’s claim that the slamming of the brakes
caused him to turn around. Stanton also testified that the gun was pressed against Edmond
when the shots were fired, while the medical examiner determined that the shots were fired
from at least three feet away, Stanton testified that the victim was shot in the head, but,
according to the medical examiner, the victim only had gunshot wounds to the neck, arm
and torso.
Further undermining Stanton’s testimony was the fact that he frequently
contradicted himself and often claimed to be “confused” when these issues were brought
out on cross-examination. For example, Stanton testified that he was merely four feet away
from where the victim was shot, which was inconsistent with statement made to the police
at the station that night, in which he said he was standing ten to twelve yards away. Stanton
testified that he was “confused” about whether he witnessed two or three shots, even though
he testified that he witnessed the shooting from a mere four feet away. Stanton also initially

4

<..

Case: 18-2936

Document: 92

Page: 8

Date Filed: 03/05/2021

claimed that he had seen Edwards come out of a gray car in his police statement, but then
switched to claiming it was a metallic green car, before admitting, “I got my colors wrong.”
J.A. 474.
Edwards’ trial counsel also presented a myriad of evidence undermining Stanton’s
credibility and showing that he was unreliable: Stanton was a drug dealer, with a criminal
past; Stanton fled Philadelphia after the shooting; and Stanton gave his brother’s name as
his own on the night of the shooting. Edwards’ counsel also insinuated that Stanton was
testifying against Edwards to curry favor with law enforcement, especially in light of his
active criminal charges and overdue child support obligations.
At closing, trial counsel reiterated many of these inconsistencies, and argued that
there were “serious questions” as to “whether or not [Stanton] saw anything or whether or
not he was really there, because his testimony [was] just so contradictory.” J.A. 534.
Edwards now points to one inconsistency-whether Stanton saw the shooting occurand claims that this discrepancy was the tipping point in convincing the jury that Stanton
was not credible.4 This argument is unpersuasive. Given the inconsistencies in Stanton’s
testimony, we cannot find that trial counsel’s failure to impeach Stanton with this
additional statement was prejudicial. Trial counsel thoroughly impeached Stanton at trial.

4 Edwards’ claims are based on statements made in two police reports, but
Edwards focuses on the statement that Stanton did not see the shooting as the basis for
prejudice.

. >

Case: 18-2936

Document: 92

Page: 9

Date Filed: 03/05/2021

The various contradictory statements certainly undermined Stanton’s credibility with the
jury.

Here, Stanton was also not the only witness to the shooting. While Edwards argues
that Stanton is the only direct eyewitness to the actual shooting, Hendrick identified
Edwards as the man who had previously attacked Edmond and got out of the car that night,
gun-in-hand, shortly before he heard gunshots. As a result, even if counsel had crossexamined Stanton with the additional inconsistent statements, it is not reasonably probable
that the outcome would have been different because of Hendrick’s testimony and the other
evidence presented during the trial (e.g., a 911 call and forensic evidence) was sufficient
to allow the jury to conclude that Edwards committed the crimes he was accused of.
Edwards has not met his burden of showing that there was a reasonable probability
that the outcome of his trial would have been different had trial counsel impeached Stanton
with the police reports. Because we conclude that Edwards did not satisfy the prejudice
•s

prong of the Strickland standard, we need not address' deficient performance prong. See
United States v. Travillion,'! 59'V 3d 281, 294 (3d Cir. 2014) (“[TJhere is no reason for a
court deciding an ineffective assistance claim ... even to address both components of the
inquiry if the [petitioner] makes an insufficient showing on one.” (quoting Marshall v.
'~-v

Hendricks, 307 F.3d 36, 86-87 (3d Cir. 2002) (first alteration in original)). Therefore,
Edwards’ ineffective assistance of counsel claim fails.

*3
J

Case^l 8-2936

Document: 92

Page: 10

Date Filed: 03/05/2021

IV. CONCLUSION
For the foregoing reasons, we will affirm the District Court’s order denying habeas
relief.

IS

f,

I

Case 2:15-cv-05615-GAM Document

-iled 08/07/18 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

NICHOLAS EDWARDS,
Petitioner,
Civil Action
'V.

No. 15-5615
SUPERINTENDENT OVERMYER, et al.,
Respondents.

ORDER
'

This 7th day of August, 2018, pursuant to 28 U.S.C. § 636(b)(1)(C), following a

comprehensive review of the exceptionally thorough Report and Recommendation (“R & R”)
issued by the Honorable Lynne A. Sitarski (ECF No. 29), it is hereby ORDERED that the R &
R is adopted over Petitioner’s objections (ECF No. 31). Nicholas Edwards’s Petition for a Writ
of Habeas Corpr pursuant to 28 U.S.C. § 2254 (ECF Nos. 1,25) is DISMISSED, with
prejudice and without issuance of a certificate of appealability.
Petitioner presented his objections in 16 separately numbered paragraphs, in which he
primarilyrecasts some of his original claims in summary fashion, see Pet’r’s Obj.

2,4, 9, 10,

12, 13, 14,-15, 16, with a few paragraphs purporting to address the relevant legal principles. See
id. THf 1, 3, 5-8. .The R & R addressed each of these claims in great detail, taking them up on
their merits even where severe procedural defects were identified. I.thus adopt the well-founded
bases for dismissal laid out in the R & R, and supplement the Report only as to the arguments
advanced in paragraph 11 of Plaintiff s objection.
Specifically, in recommending dismissal because the claim was procedurally. defaulted,
the R & R construed Ground Fifteen of the Petition as speaking to trial counsel’s failure to

41

Case 2:15-cv-05615-GAIV

ument 33 Filed 08/07/18 Page 2 of 2

challenge the lack of a written sentencing order. Petitioner conceded that the claims pertaining
to Ground Fifteen are procedurally defaulted. But in an effort to establish cause and prejudice to
overcome the procedural bar, he objects to the R & R’s construction, summarily arguing that the
basis for his claim under Ground Fifteen was also trial counsel’s ineffectiveness in failing to
object when the trial court did not sentence him in accordance with 42 Pa. Cons. Stat. §9711.

i

Assuming for purposes of analysis that was the case, Petitioner’s claim is still, without
merit. He was convicted of first degree murder following an incident in which, in an effort to
protect his drug territory, he publically shot another man in front of two eye witnesses. Section
9711 is the sentencing statute pertaining to that crime, and provides only two possible sentences:
life imprisonment or the death penalty. See i8 Pa. Stat. and Cons. Stat. Ann. § 1102(a); Com. v.
Trivigno, 750 A.2d 243, 255 (Pa. 2000) (“[L]ife imprisonment means that the defendant is not
eligible for parole.”). Petitioner was sentenced to a term of life imprisonment. Whatever trial
counsel’s ineffectiveness at sentencing, Petitioner cannot argue that it was prejudicial, as he
avoided the death penalty, the only alternative sentence under Pennsylvania law. Hi's Petition is
denied accordingly.

/s/ Gerald Austin McHugh
United States District Judge

1 In summary fashion and without any citation.for legal support, Petitioner also appears to argue that trial
counsel was ineffective for failing to challenge the legality of the sentencing statute as void for
vagueness. That argument does not appear anywhere in the record, nor does it appear in the original
Petition or Petitioner’s lengthy “Traverse.” Without more, it is properly dismissed on procedural default
grounds.

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

%

CIVIL ACTION

NICHOLAS EDWARDS
Petitioner,

NO.

v.

/

S'

I5-cv-5615

ROBERT MARSH, et al. 1
Respondents.

REPORT AND RECOMMENDATION
LYNNE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE

June 15, 2018

Before the Court is a pro se Petition for Writ of Habeas Corpus filed pursuant to 28
U.S.C. § 2254 by Nicholas Edwards (“Petitioner”), an individual currently incarcerated at the
State Correctional Institution - Benner Township in Bellefonte, Pennsylvania. This matter has
been referred to me for a Report and Recommendation. For the following reasons, I respectfully
i .

i

recommend that the petition for habeas corpus be. DENIED.

I.

PROCEDURAL BACKGROUND2
The Court of Common Pleas of Philadelphia County provided the following recitation of
i

I have substituted Robert Marsh, the Superintendent of SCI Benner Township, as the
respondent in this case. See Rules Governing Section 2254 Cases, Rule 2 (requiring the current
custodian to be named as respondent).
2 Respondents have submitted the relevant transcripts and portions of the state court
record (“SCR”) in hard-copy format. Documents contained in the SCR will be cited as “SCR
No.___.” The Court has also consulted the Court of Common Pleas criminal docket sheet for
Commonwealth v. Edwards, CP-51-CR-1006311-2003, available at
https://ujsportal.pacourts.us/DocketSheets/CPReport.ashx?docketNumber=CP-51-CR-10063112003 (last visited June 14, 2018) [hereinafter “Crim. Docket”] and the Pennsylvania Superior
Court’s appellate docket sheet for Commonwealth v. Edwards, 2760 EDA 2016, available at
https://ujsportal.pacourts.us/DocketSheets/ AppellateCourtReport.ashx?docketNumber=2760+ED
A+2016 (last visited June 14, 2018) [hereinafter “App. Docket”].

ENT’D JUN 15 Z018

si

>

3|

the facts:
On July 2, 20.03, petitioner, in an effort to protect his drug
territory, attacked the decedent, Xavier Edmunds, with a baseball
bat and told him to stay off “his block.”

L

-U

On July 4, 2003, at approximately 9:00 p.m., Edmunds was
standing outside 2838 Jasper Street with Travis Hendrick,'Walter
Stanton and other friends. A car pulled up alongside them.
Hendrick and Stanton observed petitioner exit the vehicle with a
firearm and heard him shout “You think I’m playing.” When
Hendrick saw petitioner was armed, he went in the house and
called the police. Petitioner then fired two shots at Edmunds, who
fell to the ground. Petitioner got back into the vehicle and fled.
Police arrived on the scene within minutes and transported
Edmunds to the hospital, where he was later pronounced dead.
Hendrick gave a written police statement immediately
following the murder in which he positively identified petitioner as
the shooter. Stanton also identified petitioner as the shooter in a
written statement to police shortly after the incident. Both
Hendrick and Stanton were acquainted with petitioner. Hendrick
had known- petitioner for about a year, and Stanton had seen
petitioner approximately fifty times over the eight years preceding
the shooting.

Commonwealth v. Edwards, No. CP-51-CR-1006311-2003, slip op. at 2-3 (Phila. Cnty. Com. PI.
Apr. 23, 2014) (citations omitted) [hereinafter “PCRA 1925(a) Op.”].'
On November 21, 2005, a jury found Petitioner guilty of first degree murder, 18 Pa.
Cons. Stat. § 2502(a), criminal conspiracy, id. § 903, possession of an instrument of crime, id. §
907, and carrying a firearm without a license, id. § 6106. PCRA 1925(a) Op. at 1; Crim. Docket •
at 4; (N.T. 11/21/05 at 17-18). On February 3, 2006, Petitioner was sentenced to life
imprisonment, plus a term of twenty-one and a half to forty-four years’ imprisonment. Crim.
Docket at 16-17; (N.T. 02/03/06 at 18:2-14).

;

Petitioner filed a counseled, untimely post sentence motion, which was dismissed on
March 1, 2006. (Order, SCR D9); Br. for Appellant, Commonwealth v. Edwards, No. 1267 EDA

It

2008, 2008 WL 7091262, at *8 (Pa. Super.) [hereinafter “Dir. App. Br ”]. After having his
appellate rights reinstated nunc pro tunc, Petitioner filed a counseled notice of appeal. Crim.
Docket at 22; (Order, SCR No. D19; Notice of Appeal Nunc Pro Tunc, SCR No. D18). The
Superior Court affirmed Petitioner’s judgment of sentence on July 28, 2009. Crim. Docket at 23;
Commonwealth v. Edwards, No. 1267 EDA 2008, slip op. at 1 (Pa. Super. July 28, 2009).
Petitioner filed a petition for allowance of appeal with the Pennsylvania Supreme Court, which
was denied on February 5, 2010. Crim Docket at 23; (Order, SCR No. D27).
On June 28, 2010, Petitioner filed a pro se petition for relief under Pennsylvania’s PostConviction Relief Act, 42 Pa. Cons. Stat. §§ 9541, etseq. (“PCRA”). Crim. Docket at 23; (Mot.
for Post Conviction Collateral Relief, SCR No. D28). Counsel was appointed and submitted an
amended PCRA petition on his behalf. Crim. Docket at 24-26; (Am. Pet., SCR No. D31; Corn
Am. Pet, SCR No. D33). Following an evidentiary hearing, on April 23, 2014, the PCRA Court
dismissed the PCRA petition.3 Crim. Docket at 30; (Order, SCR-No. 41). Petitioner filed a
timely counseled appeal, and on March 2, 2015, the Superior Court affirmed the denial of the
PCRA petition. (Notice of Appeal, SCR No. 44); Commonwealth v. Edwards, No. 1508 EDA
2014, slip op: at 1 (Pa. Super. Mar. 2, 2015). Petitioner sought allowance of appeal in the
Pennsylvania Supreme Court, which was denied on July 29, 2015. Crim. Docket at 32.
On October 12, 2015,4 Petitioner filed a pro se petition for writ of habeas corpus, raising

3 Petitioner filed a pro se supplemental PCRA petition on June 4, 2013, requesting to
assert sixteen additional claims. Crim. Docket at 27; (Supp. Mot. to Amend, SCR No. D37).
The PCRA Court’s 1925(a) Opinion only discusses the claims raised in the counseled amended
petition. See PCRA 1925(a) Op. at 2. Pennsylvania law does not permit “hybrid”
representation; thus, Petitioner’s pro se filing could not be considered by the PCRA court. See
Commonwealth v. Jette, 23 A.3d 1032, 1044 n.14 (Pa. 2011); Pa. R. App. P. 3304.
4 Pennsylvania and federal courts employ the prisoner mailbox rule, pursuant to which
the pro se petition is deemed filed when it is given to prison officials for mailing. See Perry v.

. the following claims for relief (recited verbatim):
(1)

Defendant was denied due process of law under the
Fourteenth Amendment to the United States Constitution,
when the trial court’s ruling that precluded cross
examination of commonwealth witness Travis Hendricks
with regard to a recent arrest.

(2)

Defendant was denied due process of law under the
Fourteenth Amendment to the United States Constitution,
when the trial court’s ruling that precluded cross
examination of commonwealth witness Travis Hendricks
with regard to the fact underlying his prior conviction.

(3)

Defendant was denied due process of law under the
Fourteen Amendment to the United States Constitution,
when the trial court’s ruling that precluded cross
examination of commonwealth witness Travis Hendrick
with regard to his understanding of the nature of probation
and his obligation not to violate his probation and the
differences between aggravated assaultf,] attempted
murderf,] and malicious wounding.

(4)

Defendant was denied due process of law under the
Fourteen Amendment to the United States Constitution,
when the trial court ruling that precluded cross examination
of Commonwealth witness Walter Stanton concerning his
use of aliases.

(5)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment to the United States
Constitution and was denied Sue process of law under the
Fourteenth Amendment to the United States Constitution
when the trial court’s ruling that denied defendant motion
for a mistrial for the-hearsay statement made during the
testimony of police [officer] Stephanie Flanders.

(6)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment to the United States
Constitution and was denied due process of law under the

Diguglielmo, 169 F. App’x 134, 136 n.3 (3d Cir. 2006) (citing Commonwealth v. Little, 716 A.2d
1287 (Pa. Super. 1998)); Burns v. Morton, 134 F.3d 109, 113 (3d Cir. 1998); Commonwealth v.
Castro, 766 A.2d 1283, 1287 (Pa. Super. 2001). Here, Petitioner certified that he gave his
habeas petition to prison officials on October 12, 2015, and it will be deemed filed on that date.
(Hab. Pet. 32, ECF No. 1).

Fourteenth Amendment to the United States Constitution,
when the trial court ruling that defendant his request for a
jury instruction as to the bias[,] currying favor with the
commonwealth[,] and expectation of leniency with regard
to the commonwealth’s witnesses. •
(V)-

Defendant was denied his right to effective assistance of
counsel’s under the Sixth Amendment to' the United States’
Constitution and was denied due process of law under the
Fourteenth Amendment to the United States Constitution
when the trial court’s ruling that allowed the jury to view a
photo array of the defendant.

(8)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment- to the United States
Constitution and was denied , due process of law under the
Fourteenth Amendment to the United States Constitution
when trial counsel failed to call known alibi witnesses.

(9)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment to the United States
Constitution, when trial counsel failed to asset to move for
dismissal of defendant charges pursuant to Rule 600 of the
Pennsylvania Rule of Criminal Procedures.

(10)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment and the due process
Clause under the Fourteenth Amendment to the United
States Constitution when trial counsel failure to object to
the improperly [vouching] and bolstering the credibility of
Commonwealth witness Travis Hendricks.

(11)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment to the United States
Constitution when trial counsel failed to impeach
commonwealth witnesses by showing possible prejudice
and bias.

(12)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment and was denied, due
process of law under the Fourteenth Amendment to the
United States Constitution when Miranda warning were not
given and trial counsel failed to [suppress] the defendant
statement and defendant requested for counsel which was
denied.

(13)

Defendant was denied due process of law under the
Fourteenth Amendment to the United States Constitution
when the trial courts jury- instruction were not read as a
whole to the jury.

(14)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment and was denied due
process of law under the Fourteenth Amendment to the
United States Constitution when trial counsel failed to
object to the trial court improper flight jury instruction
3.14.

(15)

Defendant was denied his right to effective assistance of
counsel’s under the Sixth Amendment and was denied due
process of law under the Fourteenth Amendment to the
United States Constitution when all prior counsel’s failed to
challenge legality of defendant illegal sentence statute.

(16)

Defendant was denied due process of law under the
Fourteenth Amendment to the United States Constitution
when the trial court failed to give a requested jury
instruction on 4.08D impeachment prior conviction.

(17)

Defendant was denied due process of law under the
Fourteenth Amendment to the United States Constitution
when the trial court failed to give a requested jury
instruction on Inflammatory photographs (Crim. 3.18).

(.18)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment to the United States
Constitution when trial counsel rendered ineffectiveness for
failing to obtain an expert to prepare defendant mental
health history and social history amounted to
ineffectiveness.

(19)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment and was denied due
process of law under the Fourteenth Amendment to the
United States Constitution when PCRA Counsel failed to
adequately investigate the record and raise a layered claim
of trial counsel and direct appeal counsel ineffectiveness,

(20)

Defendant was denied his right to effective assistance of •
counsel under the Sixth Amendment to the United States
Constitution when trial counsel failed to conduct an
independent interview of the police officer’s in the

3b

I

defendant discovery material.
(21)

Defendant was denied his right to effective assistance of
counsel under the Sixth Amendment and was denied due
process of law under the Fourteenth Amendment to the
United States Constitution when the Commonwealth
committed a Brady violation that violated its discovery
[obligation].

(Hab. Pet. 32-54, ECFNo. I).5
The petition was assigned to the Honorable Gerald A. McHugh, who referred it to me for
a Report and Recommendation. (Order, ECF No. 3). The Commonwealth filed a response
(Resp. to Pet. for Writ of Habeas Corpus, ECF No. 22 [hereinafter “Resp. to Pet.”]), and
Petitioner filed a reply (Pef r’s Traverse to Resp. to Order to Show Cause, ECF No. 25
[hereinafter “Traverse”]). The matter has been fully briefed, and is ripe for disposition.

II.

LEGAL STANDARDS
A.

Exhaustion and Procedural Default

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) grants to persons
in state or federal custody the right to file a petition in a federal court seeking the issuance of a
writ of habeas corpus. See 28 U.S.C. § 2254. Pursuant to the AEDPA:
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available
in the courts of the State; or
(B)(i) there is an absence of available State corrective
5 On December 29, 2015, Petitioner filed another pro se PCRA petition. Crim. Docket at
33, It was dismissed as untimely, and the Superior Court affirmed the dismissal on July 6, 2017.
Id. at 35; Commonwealth v. Edwards, No. 2760 EDA 2016, 2017 WL 2875422, slip op. at *1
(Pa. Super. July 6, 2017). Petitioner filed.a petition for allowance of appeal, which the
Pennsylvania Supreme Court denied on January 9, 2018. App. Docket at 4; (Not., ECF No. 27).

31

process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
28 U.S.C. § 2254(b)(1). The exhaustion requirement is rooted in considerations of comity, to
ensure that state courts have the initial opportunity to review federal constitutional challenges to
state convictions. See Castille v. Peoples, 489 U.S. 346, 349 (1989); Rose v. Lundy, 455 U.S.
509, 518 (1982); Leyva v. Williams, 504 F.3d 357, 365 (3d Cir. 2007); Werts v. Vaughn, 228 F.3d
178, 192 (3d Cir. 2000).
Respect for the state court system requires that' the habeas petitioner demonstrate that the
claims in question have been “fairly presented to the state courts.” Castille, 489 U.S. at 351. To
“fairly present” a claim, a petitioner must present its “factual and legal substance to the state
i

courts in a manner that puts them on notice that a federal claim is being asserted.” McCandless v.
Vaughn, 172 F.3d 255, 261 (3d Cir. 1999); see also Nara v. Frank, 488 F.3d 187, 197-98 (3d Cir.
2007) (recognizing that a claim is fairly presented when a petitioner presents the same factual and
legal-basis for the claim to the state courts). A state prisoner exhausts state remedies by giving
the “state courts one full opportunity to resolve any constitutional issues.by invoking one
complete round of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526
U.S. 838, 845 (1999). In Pennsylvania, one complete round includes presenting the federal claim
through the Superior Court on direct or collateral review. See Lambert v. Blackwell, 387 F.3d
210, 233-34 (3d Cir. 2004). The habeas petitioner bears the burden of proving exhaustion of all
state remedies. Boyd v. Walmart, 579 F.3d 330, 367 (3d Cir. 2009)
If a habeas petition contains unexhausted claims, the federal district court must ordinarily
dismiss the petition without prejudice so that the petitioner can return to state court to exhaust his
remedies. Slutzker v. Johnson, 393 F.3d 373, 379 .(3d Cir. 2004). However, if state law would

is

clearly foreclose review of the claims, the exhaustion requirement is technically satisfied because
there is an absence of state corrective process. See Carpenter v. Vaughn, 296 F.3d 138, 146 (3d
Cir. 2002); Lines v. Larkin, 208 F.3d 153, 160 (3d Cir. 2000). The failure to properly present '
claims to the state court generally results in a procedural default. Lines, 208 F.3d at 683.
The. doctrine of procedural default bars federal habeas relief when a state court relies upon, or
would rely upon, “‘a state law ground that is independent of the federal question and adequate to
support the judgment’” to foreclose review of the federal claim. Nolan v. Wynder, 363 F. App’x
868, 871 (3d Cir. 2010) (not precedential) (quoting Beard v, Kindler, 558 U.S. 53, 53 (2009)); see
also Taylor v. Horn, 504 F.3d 416, 427-28 (3d Cir. 2007) (citing Coleman v. Thompson, 501 U.S.
722, 730 (1991)).
The requirements of “independence” and “adequacy” are distinct. Johnson v. Pinchak,
392 F.3d 551, 557-59 (3d Cir. 2004). State procedural grounds are not independent, and will not
bar federal habeas relief, if the state law ground is so “interwoven with federal law” that it cannot
be said to be independent of the merits of a petitioner’s federal claims. Coleman, 501 U.S. at
739—40. A state rule is “adequate” for procedural default purposes if it is “firmly established and
regularly followed.” Johnson v. Lee,

U.S.

, 136 S. Ct. 1802, 1804 (2016) (per curiam)

(citation omitted). These requirements ensure that “federal review is not barred unless a habeas
petitioner had fair notice of the need to follow the state procedural rule,” Bronshtein v. Horn, 404
F.3d 700, 707 (3d Cir. 2005), and that “review is foreclosed by what may honestly be called
‘rules’ ... of general applicability^] rather than by whim or prejudice against a claim or
claimant.” Id. at 708.
Like the exhaustion requirement, the doctrine of procedural default is grounded in
principles of comity and federalism. As the Supreme Court has explained:

In the absence of the independent and adequate state ground
doctrine in federal habeas, habeas petitioners would be able to
avoid the exhaustion requirement by defaulting their federal
claims in state court. .The independent and adequate state
ground doctrine ensures that the States’ interest in correcting
their own mistakes is respected in all federal habeas cases.
Edwards v. Carpenter, 529 U.S. 446, 452-53 (2000).
Federal habeas review is not available to a petitioner whose constitutional claims have
not been addressed on the merits by the state courts due to procedural default, unless such
petitioner can demonstrate: (1) cause for the default and actual prejudice as a result of the alleged
violation of federal law; or (2) that failure to consider the claims will result in a fundamental
miscarriage of justice. Id. at 451; Coleman, 501 U.S. at 750. To demonstrate cause and
prejudice, the petitioner must show some objective factor external to the defense that impeded
counsel’s efforts to comply with some state procedural rule. Slutzker, 393 F.3d at 381 (quoting
Murray v. Carrier, All U.S. 478, 488 (1986)). To demonstrate a fundamental miscarriage of
justice, a habeas petitioner must typically demonstrate actual innocence. Schlup v. Delo, 513 U.S.
298,324-26 (1995).
B.

Merits Review

The AEDPA increased the deference federal courts must give to the factual findings and
legal determinations of the state courts. Woodford v. Viscotti, 537 U.S. 19, 24 (2002); Werts, 228
F.3d at 196. Pursuant to 28 U.S.C. § 2254(d), as amended by the AEDPA, a petition for habeas
corpus may be granted only if: (1) the state court’s adjudication of the claim resulted in a
decision contrary to, or involved an unreasonable application of, “clearly established Federal law,
as determined by the Supreme Court of United States;” or (2) the adjudication resulted in a
decision that was “based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. § 2254(d)(l)-(2). Factual issues determined
-4.

iit

:

arise out of a variety of trial court rulings, such as: (1) precluding cross examination of Travis
Hendrick about a recent arrest (Ground One), Hendrick’s prior conviction (Ground Two), and
Hendrick’s understanding of probation, his obligation not to violate probation, and the
differences between aggravated assault, attempted murder, and malicious wounding (Ground
Three) (Hab. Pet. 33-35, ECF No. 1); (2) precluding cross examination of Walter Stanton
concerning his reason for giving aliases (Ground Four) {id'. at 36); (3) denying a motion for
mistrial made during Officer Stephanie Flanders’ testimony (Ground Five) {id at 37); (4)
denying Petitioner’s request for a jury instruction regarding witness’ bias, desire to curry favor
with the Commonwealth, and expectation of leniency (Ground Six) {id. at 38); and (5) allowing
the jury- to view a photo array (Ground Seven) {id. at 39). Petitioner also raises a due process
, challenge in Ground Eight, regarding trial counsel’s failure to call alibi witnesses. {Id. at 40).
These claims are unexhausted and procedurally defaulted. In state court, Petitioner
challenged the trial court’s rulings under state law and the Sixth Amendment right to
confrontation, and he challenged counsel’s failure to call alibi witnesses under the Sixth
Amendment right to counsel. See Dir. App. Br. at * 17-44; Br. for Appellant, Commonwealth v.
. Edwards, No. 1508 EDA 2014, 2014 WL 7641609, at *31-44 (Pa. Super.) [hereinafter “PCRA
App. Br.”]. Petitioner never presented a federal due process challenge to any of these claims.
Because he did not fairly present these federal due process claims to the state courts, they are
unexhausted. See McCandless, 172 F.3d at 261-63. They are procedurally defaulted because
Petitioner cannot return to state court to exhaust them; any such petition would be time-barred by
the PGRA’s statute of limitations.6 See 42 Pa. Cons. Stat. § 9545(b)(1); Keller v. Larkins, 251

6 The PCRA requires collateral actions to be filed within one year of the date the
conviction becomes final. 42 Pa. Cons. Stat. § 9545(b)(1). Petitioner’s conviction became final
on May 6, 2010, when the time expired to file a petition for writ of certiorari in the United States

n

F.3d 408, 415 (3d Cir.-2001).
To the extent Petitioner asserts ineffective assistance of appellate and PCRA counsel as
cause to overcome the default of his due process claims, these arguments fail.7 Petitioner’s
claims of ineffective assistance of appellate counsel are, themselves, unexhausted and defaulted.
See infra. Thus, his allegations of ineffective assistance of appellate counsel cannot serve as
cause. See Edwards v. Carpenter, 529 U.S. 446, 451-54 (2000) (ineffectiveness claims asserted
' • as cause for procedural default are also subject to default); Sandler v, Wynder, No. 07-3876,
2008 WL 2433094, at *21 n.4 (E.D. Pa. June 21, 2008); Grasty v. Wolfe, No. 01-7312, 2003 WL
22247613, at *1 n.l (E.D. Pa. Aug. 28, 2003). Moreover, Petitioner’s claim of PCRA counsel’s
ineffectiveness for failure to assert appellate counsel’s ineffectiveness cannot cure this issue.
Although the Supreme Court in Martinez v. Ryan held that “[inadequate assistance of counsel at
initial-review collateral proceedings may establish cause for a prisoner’s procedural default of a
claim of ineffective assistance at trial,” 566 U.S. 1, 9 (2012), Martinez does not extend to
procedurally defaulted claims of ineffective assistance of appellate counsel. See Davila v. Davis,
U.S.

, 137 S. Ct. 2058, 2065 (2017) (declining to extend Martinez to defaulted claims of

ineffective assistance of appellate counsel); Greene v. Superintendent Smithfteld SCI, No. 163636, slip op. at 15-16 (3d Cir. Feb. 9, 2018).
Supreme Court. Id. § 9545(b)(3). Because Petitioner’s conviction became final over eight years
ago, the PCRA statute of limitations would preclude Petitioner from now presenting these federal
due process claims in a PCRA petition. Id. § 9545(b)(1).
7 For instance, in Grounds Six and Seven, Petitioner alleges appellate counsel was
ineffective for failing to cite “federal case law,” and that PCRA counsel was ineffective for
failing to assert direct appeal counsel’s ineffectiveness. (Hab. Pet. 38, 39, ECF.No. 1). He does
not specify what “federal case law” appellate counsel should have cited. However, the Court,
must liberally construe Petitioner’s pro se pleadings. See McNeil v. United States, 508 U.S. 106,
113 (1993); Haines v. Kerner, 404 U.S. 519, 520-21 (1972). Given the procedural default of
Petitioner’s federal due process claims, the Court construes Petitioner’s allegations of appellate
and PCRA counsel ineffectiveness as an attempt to raise cause and prejudice.

Hi

The Court respectfully recommends that Petitioner’s due process claims raised in
Grounds One through Eight be dismissed as procedurally defaulted. 8
B.

Grounds One, Two, and Three: Ineffectiveness Claims Concerning Travis
Hendrick

In Grounds One through Three, Petitioner raises ineffective assistance of trial and
appellate counsel concerning Travis Hendrick. Petitioner asserts that trial counsel was
/

ineffective for failing to investigate why Hendrick was recently arrested9 (Ground One) and for
failing to properly argue that Hendrick was biased and expected leniency from the
Commonwealth in adjudicating an alleged probation violation (Ground Three), and that direct
appeal counsel was ineffective for failing to adequately argue on appeal that the trial court erred
in precluding cross examination of Hendrick on his prior conviction for malicious wounding
.

with a gun (Ground Two). (Hab. Pet. 33-35, ECF No. 1). The Commonwealth does not address
these claims. The Court concludes these claims are procedurally defaulted.
On direct appeal, Petitioner challenged the trial court’s rulings limiting the scope of his
cross examination of Hendrick regarding Hendrick’s “recent arrest,” the facts underlying
Hendrick’s prior convictions, and Hendrick’s “understanding of the nature of probation and his
obligation not to violate his probation, and, the differences between aggravated assault,
attempted murder and malicious wounding.” See Edwards, No, 1267'EDA 2008, slip op. at 3-9;
Dir. App. Br. at *16-27. However, Petitioner did not raise the current ineffectiveness claims in
state court, and thus, the ineffectiveness claims raised in Grounds One through Three are
unexhausted. They are now procedurally defaulted pursuant to the PCRA’s statute of
8

These defaulted due process claims will not be discussed further.

9 Although Petitioner does not specify what, he means by “recent arrest,” on direct
appeal, the Superior Court “glean[edj from the record” that Petitioner was referencing
Hendrick’s December 9, 2003 arrest in Virginia. Edwards, No. 1267 EDA 2008, slip op. at 6.

limitations-. See supra n.6. Petitioner does not acknowledge this default, nor does he allege
cause and prejudice or a fundamental miscarriage of justice to permit review of these claims.
The Court respectfully recommends dismissing Grounds One through Three as
procedurally defaulted.
C.

Ground Five: Claims Concerning Motion for Mistrial and Officer Flanders’
Testimony

In Ground Five, Petitioner raises a number of claims concerning his request for a mistrial
and/or the testimony of Police Officer Stephanie Flanders, including: trial counsel-was
ineffective for failing to object during Officer Flanders’ testimony, ineffective assistance of all
prior counsel, a Brady violation, violations of Pennsylvania Rules of Criminal Procedure, and a
violation of his right to confrontation: (Hab. Pet. 37, ECF No. 1). The Commonwealth responds
that Petitioner’s claims are procedurally defaulted. (Resp. to Pet. 19, ECF No. 22). The Court
finds the confrontation claim is exhausted but meritless, and Petitioner’s other claims are
procedurally defaulted or not cognizable.
On direct appeal, Petitioner argued the trial court erred in denying his motion for mistrial
made during Officer Flanders’ testimony. Edwards, No. 1267 EDA 2008, slip op. at 10. The
■^.Superior Court explained that a mistrial is only required “when an incident is of such a nature
that its unavoidable effect is to deprive the appellant of a fair and impartial trial.” Id. (citation
and quotation marks omitted). “[A] mistrial is not necessary where cautionary instructions are
adequate to overcome any possible prejudice.” Id. at 11 (citation and quotation marks omitted).
Here, Officer Flanders testified on direct examination that she transported Travis
Hendrick from the crime scene to East Detectives, where she received a radio call that Xavier
' Edmonds died. Id. at 10. She informed Hendrick of Edmonds’ death and heard him call
someone and say, “My boy is dead, my boy is dead, I’m gonna [sic] talk.” Id. She testified that

•

%.

Hendrick was very upset and kept saying, “I can’t believe he killed my boy.” Id. Petitioner did
not object to Officer Flanders’ testimony. Id. Rather, on cross examination, defense counsel
elicited an admission that Hendrick’s comments were not included in Officer Flanders’ police
report. Id. at 10-11. During a sidebar discussion, the prosecutor stated that she had-learned of
Hendrick’s statement to Officer Flanders a few days-prior, and her failure to disclose it was
inadvertent. Id. at 11. Defense counsel requested a mistrial, arguing the statement, “My boy is
dead, my boy is dead, now I’m going to talk,” was damaging to the defense. Id. The trial court
denied the request for a mistrial, but agreed to strike Officer Flanders’ testimony and provide a
cautionary instruction. Id. at 11, 12. The Superior Court found the trial court “promptly
provided an instruction in an attempt to cure any prejudice .. ..” Id. at 12. Thus, the Superior
Court rejected Petitioner’s claim. Id.
Here, Petitioner’s allegations that he was “violated of Pa. Rule, of Crim. P. 605B and
$ 573D” are based solely on violations of state law, and thus, are not cognizable habeas claims.
Federal habeas review is restricted to claims alleging that the petitioner is in custody in violation
t of federal law. See Estelle v. McGuire, 502 U.S. 62, 67-68 (1991) (“[I]t is not the province of a
federal habeas court to reexamine state-court determinations on state-law questions.”), ij'
■*

Petitioner’s claims of ineffective assistance and a Brady violation were not presented to ^
the Superior Court on direct or collateral appeal, and thus, they are unexhausted.10 See Dir, App.
Br. at *28-34; see generally PCRA App. Br. These claims are now procedurally defaulted

10 Though Petitioner cited Strickler v. Greene, 527 U.S. 263 (1999) in his appellate brief,
this was not sufficient to put the state court on notice that a federal claim was being asserted; he
cited Strickler only to argue that the Commonwealth’s inadvertence in violating Pennsylvania
Rule of Criminal Procedure 573D did not matter. Dir. App. Br. at *33-34. Indeed, in evaluating
this claim, the Superior Court discussed Rule 573’s disclosure requirements, but did not mention
Brady in its analysis. See Edwards, No. 1267 EDA 2008, slip op. at 12 n.5.

(

pursuant to the PCRA’s statute of limitations. See supra n.6. Petitioner raises cause and
prejudice, asserting ineffective assistance of trial counsel due to trial counsel’s failure to object
during Officer Flanders’ testimony.11 (Traverse 15-16, ECF No. 25). This argument lacks merit.
Petitioner’s claims are procedurally defaulted because Petitioner did not present them to the
Superior Court; trial counsel’s failure to object at trial is unrelated to Petitioner’s failure to fairly
present his current claims.
Finally, Petitioner alleges he was “denied his right to fully and fairly cross examin[e] .. .
Hendricks and [Ojfficer Flanders.” (Hab. Pet. 37, ECF No. 1). This claim was exhausted on
direct appeal. See Dir. App. Br. at *32. The Superior Court did not address this claim, so the /jf
Court will review it de novo. See Breakiron v. Horn, 642 F.3d 126, 131 (3d Cir. 2011).
The Sixth Amendment guarantees the right of an accused “to be confronted with the
witnesses against him.” This includes the right of cross-examination. Davis v. Alaska, 415 U.S.
308, 315 (1974). The confrontation right is a trial right, “designed to prevent improper
restrictions on the types of questions that defense counsel may ask during cross-examination.”
Pennsylvania v. Ritchie, 480 U.S. 39, 52-53 (1987) (citing California v. Green, 399 U.S. 149,
157 (1970); Barber v. Page, 390 U.S. 719, 725 (1968)).
Petitioner argues the Commonwealth’s late disclosure of Hendrick’s comments to Officer
Flanders prevented him from fully and fairly cross examining Hendrick and Officer Flanders.
{See Hab. Pet. 37, ECF No. 1); see also Dir. App. Br. at *32. This argument lacks merit. The
11 To the extent Petitioner’s allegation that “[a]ll prior counsel’s ineffective” could be
construed to raise Martinez, it is insufficiently developed. He does not explain how PCRA
counsel was ineffective, and thus, cannot establish cause under Martinez. See Zettlemoyer v.
Fulcomer, 923 F.2d 284, 298 (3d Cir. 1991), cert denied, 502 U.S. 902 (1991) (a petitioner
cannot meet his burden of establishing ineffectiveness with vague and conclusory allegations);
Keys v. Attorney Gen., No. 12-2618, 2013 WL 8207554, at *17 (E.D. Pa. Feb. 15, 2013), report
and recommendation adoptedsub nom. Keys v. Attorney Gen. of Pennsylvania, No. 12-2618,
2014 WL 1383313 (E.D. Pa. Apr. 7, 2014).

n

Supreme Court has explained:
The ability to question adverse witnesses . . . does not include the
• power to require the pretrial disclosure of any and all information
that might be useful in contradicting unfavorable testimony.
Normally the right to confront one’s accusers is satisfied if defense
counsel receives wide latitude at trial to question witnesses.
Ritchie, 480 U.S. at 53 (citing Delaware v. Fensterer, 474 U.S. 15, 20 (1985)). Petitioner’s
• * counsel was permitted to engage in extensive cross examination of Hendrick and Officer
Flanders (see N.T. 11/14/05 at 147-213, 224-31; N.T. 11/16/05 at 57-69, 115-25, 140-41);
therefore, Petitioner’s confrontation right was not violated by the Commonwealth’s late %
disclosure. Cf. Ritchie, 480 U.S. at 54 (“Because defense counsel was able to cross-examine all
^ of the trial witnesses fully, we find that the Pennsylvania Supreme Court erred in holding that the
• failure to disclose the CYS file violated the Confrontation Clause.”); Fensterer, 474 U.S. at 19
(petitioner’s right to confrontation was not implicated when “the trial court did not limit the
scope or nature of defense counsel’s cross-examination in any way”).
The Court respectfully recommends denying the confrontation claim as meritless and
otherwise dismissing Ground Five as non-cognizable and procedurally defaulted. #
D.

Ground Six: Ineffective Assistance of Direct Appeal Counsel Concerning
Jury Instructions

In Ground Six, Petitioner notes that the trial court denied his request for a jury instruction
' regarding witnesses’ bias, desire to curry favor with the Commonwealth, and expectation of
leniency for testifying. (Hab. Pet. 38, ECFNo. 1). He argues appellate counsel was ineffective
for failing to cite federal case law, and for presenting the wrong jury instruction issue on appeal,
and PCRA counsel failed to raise appellate counsel’s ineffectiveness. (Id.). The Commonwealth
argues that Petitioner’s claim is defaulted. (Resp. to Pet. 21-23, ECF No. 22). The Court agrees
with the Commonwealth.

i

Petitioner’s ineffective assistance of appellate counsel claim is unexhausted; Petitioner
did not raise this claim before the Superior Court on collateral appeal. See generally PCRA App.
Br. The claim is now procedurally defaulted.12 See supra n.6. Moreover, PCRA counsel’s '
alleged failure to assert appellate counsel’s ineffectiveness cannot establish cause for the default
of this ineffective assistance of appellate counsel claim.13 See Davila, 137 S. Ct. at 2065 (2017).
The Court respectfully recommends Ground Six be dismissed as procedurally defaulted.
E.

Ground Seven: Ineffectiveness Claims Concerning Photo Array

In Ground Seven, Petitioner raises a number of claims because.the jury was permitted to
view his photo array, including: ineffective assistance of trial counsel for failing to seek.
suppression of the photo array; ineffective assistance of appellate counsel for failing to raise trial
counsel’s ineffectiveness, failing to develop an argument on appeal, failing to send a copy of the
photo array to the Superior Court, and failing to cite federal case law; and ineffective assistance
of PCRA counsel for failing to raise prior counsel’s ineffectiveness.14 (Hab. Pet. 39, ECF No. 1).
The Commonwealth responds that Petitioner’s claim that all prior counsel were ineffective is
defaulted and “patently meritless.” (Resp. to Pet. 23, ECF No. 22). The Court finds these claims
are procedurally defaulted.
12 As previously noted, this defaulted ineffective assistance of appellate counsel claim
cannot establish cause to overcome the procedural default of Petitioner’s federal due process
claim. See supra Part III.A. To the extent Petitioner is raising appellate counsel’s
ineffectiveness as cause to overcome some other, unspecified procedural default, he similarly
cannot do so because this claim is defaulted. See Edwards, 529 U.S. at 451-54; Sandler, 2008
WL 2433094, at *21; Grasty, 2003 WL 22247613, at *1 n.l.
13 To the extent Petitioner asserts PCRA counsel’s ineffectiveness as a substantive claim,
such a claim is not cognizable on federal habeas review. See 28 U.S.C. § 2254(i); Martel v.
Clair, 565 U.S. 648, 662 n.3 (2012).
14 Petitioner also alleges violations of Pennsylvania Rule of Evidence 105 and
Pennsylvania Rules of Criminal Procedure 578 and 581. (Hab. Pet. 39, ECF No. 1). As
discussed, see supra Part III.C, allegations that state procedural or evidentiary rules have been
violated are not cognizable on federal habeas revie”' See Estelle, 502 U.S. at 67-68.

r

On direct appeal, Petitioner challenged the admission of the photo array as trial court
error. Edwards, No. 1267 EDA 2008, slip op. at 14. The Superior Court noted that it was
“unable to determine the prejudicial nature of the photograph as it has not been included in the •
certified record.” Id. Nonetheless, “the trial court indicated on the record that there were no'
numbers or markings on the photograph which identified it as something associated with
criminal activity.” Id. at 14-15. Moreover, following Stanton’s testimony and at the close of
evidence, the trial court instructed the jury that it could not “draw any adverse inference against
[Petitioner] merely because the police were in possession of [his] photograph” and it could not
“consider it as evidence that [Petitioner] has been previously involved in any criminal activity.”
Id. at 15 (citing N.T. 11/17/05 at 105-06; N.T. 11/18/05 at 124). Given these instructions, the
Superior Court found “no basis on which the jury could have inferred prior criminal activity on
the part of [Petitioner].” Id.
.Petitioner’s ineffectiveness claims are unexhausted and procedurally defaulted because
they were not raised before the Superior Court, and it is too late for Petitioner to return to state
court to raise them. See supra n.6. He asserts cause, in the form of: (1) direct appeal counsel’s
ineffectiveness for failing to allege-trial counsel’s ineffectiveness, and (2) PCRA counsel’s
ineffectiveness for failing to raise all prior counsel’s ineffectiveness. Both arguments fail.
First, Petitioner’s allegation of ineffective assistance of appellate counsel cannot serve as
cause because it is unexhausted and procedurally defaulted.15 See Edwards, 529 U.S. at 451-54;
Sandler, 2008 WL 2433094, at *21 n.4; Grasty, 2003 WL 22247613, at *1 ml.

15 Moreover, when Petitioner’s direct appeal was filed, it was a “general rule” in
Pennsylvania that “a petitioner should wait to raise claims of ineffective assistance of trial
counsel until collateral review.” See Commonwealth v. Grant, 813 A.2d 726, 738 (Pa. 2002).
' Appellate counsel was not ineffective for failing to raise a claim properly deferred until PCRA
proceedings.

Petitioner also argues that PCRA counsel was ineffective, invoking Martinez v. Ryan,
566 U.S. 1 (2012). Martinez recognized a “narrow exception” to the general rule that attorney
errors in collateral proceedings do not establish cause to excuse a procedural default, holding,
“[inadequate assistance of counsel at initial-review collateral proceedings may establish cause
for a prisoner’s procedural default of a claim of ineffective assistance at trial.” 566 U.S. at 9. To
successfully invoke the Martinez exception, a petitioner must satisfy two factors: that the
underlying, otherwise defaulted, claim of ineffective assistance of trial counsel is “substantial,”
meaning that it has “some merit,” id. at 14; and that petitioner had “no counsel” or “ineffective”
counsel during the initial phase of the state collateral review proceeding. Id. at 17; see also
Glenn v. Wynder, 743 F.3d 402,410 (3d Cir. 2014). Both prongs of Martinez implicate the
controlling standard for ineffectiveness claims first stated in Strickland v. Washington: (1) that
counsel’s performance was deficient; and (2) the deficient performance prejudiced the defense.
466 U.S.668, 687 (1984).
Petitioner’s Martinez arguments lack merit. First, Martinez does not apply to defaulted
- claims of ineffective-assistance-ofappellate counsel..See Davila, 137 S. Ct. at 2065 (2017).
Thus, PCRA counsel’s alleged ineffectiveness for failing to assert appellate counsel’s
ineffectiveness cannot establish cause. Additionally, Petitioner has not established cause for the
default of his ineffective assistance of trial counsel claim because that underlying claim is not
substantial. As the Superior Court noted on direct appeal, the trial court issued two curative
instructions that eliminated any prejudice to Petitioner. The jury is presumed to have followed
these instructions. See Weeks v. Angelone, 528 U.S. 225, 234 (2000) (“A jury is presumed to
follow its instructions.”). Because the photo array did not cause prejudice to Petitioner, trial
counsel was not ineffective for failing to suppress it.

iff

The Court respectfully recommends that Ground Seven be dismissed as procedurally
defaulted.
F.

Ground Eight: Ineffective Assistance for Failure to Investigate and Call Alibi
Witnesses

In Ground Eight, Petitioner avers that trial, counsel was ineffective for failing to
investigate and call Dennis Edwards and Raheem Sloan as alibi witnesses. (Hab.Pet. 40, ECF
No. 1). The Commonwealth responds the state courts reasonably found this claim lacked merit.
(Resp. to Pet. 25, ECF No. 22).16 The Court finds the state courts reasonably rejected this claim.
The PCRA Court explained that when evaluating an ineffectiveness claim, it must
determine whether the issue has arguable merit, whether counsel’s conduct had a reasonable
basis, and whether counsel’s conduct prejudiced the defendant. PCRA 1925(a) Op. at 6. The
-

defendant bears the burden of establishing each prong. Id. Moreover, to prevail on a claim of
ineffectiveness for failing to present a witness, the defendant must show that: (1) the witness
existed; (2) counsel knew of, or should have known of, the witness; (3) the witness was willing
and able to cooperate and appear; and (4) the necessity of the proposed testimony to avoid
prejudice. Id. all.
The PCRA Court noted that at the evidentiary hearing, Raheem Sloan, Petitioner’s best
friend, testified that he was at a party with Petitioner at 9th Street and Hunting Park Avenue on
the day of the shooting. Id. at 3-4. Sloan testified that he arrived at the party with [Petitioner at

16 Petitioner also argues that “[tjhere is a reasonable probability of a different outcome . .
. had trial counsel not been on drugs of oxycotin [sic],” that counsel was ineffective for failing to
interview Jamiel Martin as a potential alibi and/or eyewitness, and that counsel was ineffective
for failing to hire an investigator to speak with Petitioner and the individuals on petitioner’s
“witnesses list.” (Hab. Pet. 40, ECF No. 1; see also Traverse 21-24, ECF No. 25). These claims
are unexhausted and procedurally defaulted. See supra n.6. Petitioner does not acknowledge
this default, nor does he allege cause and prejudice or a fundamental miscarriage ofjustice to
permit federal review.

r

approximately 12:00 p.m., and claimed that he never lost sight of Petitioner from noon to 10:00
p.m. Id. at 4. Sloan also testified that, although he knew Petitioner was charged with Edmunds’ •
murder, he did not tell anyone that he was with Petitioner at the time of the murder until more
than eight years later, when he gave an affidavit in connection with PCRA proceedings. Id.
Dennis Edwards, Petitioner’s brothef, testified that he also attended the party on July 4,
2003. Id. He testified that he arrived at approximately 12:30 p.m., with Petitioner and four
others. Id. Contrary to Sloan’s statement, Edwards testified that Sloan did not travel to the party
with them. Id. Edwards testified that Petitioner was with him the entire time, until they left
around 8:00 p.m. to attend an after-party, where they remained until 10:0.0 p.m. Id.
' Petitioner testified that he sent trial counsel a letter, dated March 10, 2004, containing a
list of thirteen potential witnesses, including Sloan and Edwards. Id. Petitioner claimed he sent
. letters to counsel on May 7, 2004 and November 1, 2004, instructing counsel to contact
witnesses, and asking whether counsel had contacted any of the thirteen witnesses he previously
identified. Id. at 4-5. Petitioner testified that he made, copies of these letters, but he later

•

retracted this testimony. Id. at 5.
Dennis Alva, Petitioner’s trial counsel, testified that Petitioner did not mention an alibi
until a prison visit on October 10, 2004, where Petitioner gave him a list of three proposed, alibi
witnesses: Joanne Lightly, Martina Fuller, and Anette Champion. Id. Petitioner did not mention
Sloan or Edwards at that time, and counsel had no documentation in his file with those names.
Id. In response to Petitioner’s list, counsel informed Judge Lewis by letter dated October 11,
2004 that Petitioner had presented him with possible alibi evidence that counsel needed to
investigate. Id. at 5. Counsel also requested a continuance. Id. at 8. Counsel contacted Ms.
Lightly and Ms. Champion, but did not believe them to be credible witnesses. Id. at 5. Counsel

ft

testified that he never saw the letters Petitioner claimed to have sent him identifying other
witnesses, and that he had no such letters in his file. Id. at 6. He stated that if he had received
those letters, he would have immediately acted, rather than waiting seven months to ask for a
continuance. Id.
The PCRA Court “found [P]etitioner’s testimony incredible and completely self-serving.”
Id. at 7. Counsel’s file contained no documentation that Petitioner mentioned Sloan or Edwards
as potential alibi witnesses, and Petitioner provided no proof that he mailed any such information
to counsel. Id. Moreover, Petitioner told Judge Lewis at trial that he had no witnesses, and that
he agreed with counsel’s decision to rest without presenting witnesses. Id.
The PCRA Court “also found Mr. Sloan’s and Mr. Edwards’ testimony to be incredible.”
Id. at 8. Although both men were aware that Petitioner was arrested in August 2003, neither told
anyone that Petitioner was with them on the night of the murder until 2012. Id. Their failure to
come forward for nearly a decade “rendered their testimony particularly specious,” especially in
light of the fact that these witnesses were “people that were very' close to [Petitioner and
undoubtedly aware of the importance of their ‘alibi testimony.’” Id. Moreover, Sloan’s
testimony was inconsistent with Edwards’ testimony on multiple points. Id.
Finally, the PCRA Court “found [counsel’s] testimony credible.” Id. The only letter
from Petitioner that counsel’s file contained was the October 4, 2010 letter, which mentioned
witnesses, but not Sloan or Edwards. Id. This fact supported counsel’s testimony that Petitioner
did not provide him with a list of witnesses in March 2004, nor did Petitioner send counsel
follow up letters in May 2004 or November 2004. Id. Indeed, immediately after he received
Petitioner’s list of potential alibi witnesses in October 2004, counsel contacted Judge Lewis and
requested a continuance to investigate the potential alibi claim. Id.

The PCRA Court concluded that trial counsel was not ineffective “because he was
unaware of the existence of Sloan and Edwards as potential alibi witnesses.” Id. at 9. Moreover,
Petitioner did not suffer prejudice from “the absence of these wholly incredible witnesses at
trial.” Id. On PCRA appeal, the Superior Court found the record supported the PCRA Court’s
credibility determination, and supported the conclusion that counsel was never informed of these
potential alibi witnesses. Edwards, 1508 EDA 2014, slip op. at 6. Thus, Petitioner’s claim
failed. Id.
A claim for ineffective assistance of counsel is governed by Strickland v. Washington,
466 U.S. 668 (1984). In Strickland, the United States Supreme Court established the following
two-pronged test to obtain habeas relief on the basis of ineffectiveness:
First, the defendant must show that counsel’s performance was
deficient. This requires showing that counsel made errors so
serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second, the
defendant must .show that the deficient performance prejudiced the
defense. This requires showing that counsel’s errors were so
serious as to deprive the defendant of a fair trial, a trial whose
result is reliable.
466 U.S. at 687. Because “it is all too easy for a court, examining counsel’s defense after it has
proved unsuccessful, to conclude that a particular act or omission of counsel was unreasonable,”
a court must be “highly deferential” to counsel’s performance and “indulge a strong presumption
that counsel’s conduct falls within the wide range of reasonable professional assistance.” Id. at
689. “Thus ... a defendant must overcome the ‘presumption that, under the circumstances, the
challenged action ‘might be considered sound trial strategy.

3 3 33

Bellv. Cone, 535 U.S. 685, 698

(2002) (quoting Strickland, 466 U.S. at 689). To establish prejudice, “[t]he defendant must show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to

err

undermine confidence in the outcome.” Strickland, 466 U.S. at 694.
It is well settled that Strickland is“clearly established Federal law, as determined by the
Supreme Court of the United States.” Williams, 529 U.S. at 391. Thus, Petitioner is entitled to
relief if the Pennsylvania court’s rejection of his claims was: (1) “contrary to, or involved an
unreasonable application of,” that clearly established law; or (2) “based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.” 28
U.S.U § 2254(d)(l)-(2).
Regarding the “contrary to” clause, the Superior Court addressed Petitioner’s ineffective
assistance claims using Pennsylvania’s three-pronged ineffectiveness test.- Edwards, No. 1508
EDA 2014, slip op. at 3. This test requires the petitioner to establish: (1) the underlying claim
has arguable merit; (2) counsel lacked a reasonable basis for his or her conduct; and (3) but for
counsel’s ineffectiveness, there is a reasonable probability that the outcome of the proceedings
would have been different. Id. (citing Commonwealth v. Bomar, 104 A.3d 1179, 1188 (Pa.
2014)). The Third Circuit has found the Pennsylvania ineffectiveness test is not contrary to the
Strickland standard. See Werts 228 F.3d at 204. Because the Superior Court did not apply law
contrary to clearly established precedent, Petitioner is entitled to relief only if he can demonstrate
that its adjudication involved an unreasonable application of Strickland or was based on an
unreasonable determination of the facts in light of the evidence. 17
A state court’s factual findings are presumed correct on habeas review, unless rebutted by
clear and convincing evidence. 28 U.S.C. § 2254(e)(1). This Court must accept the PCRA
Court’s factual findings and credibility determinations. See Campbell v. Vaughn, 209 F.3d 280,

17

In considering a § 2254 petition, the federal courts examine the “last reasoned
decision” of the state courts. Simmons v. Beard, 590 F.3d 223, 231-32 (3d Cir. 2009) (citing
Bond v. Beard, 539 F.3d 256, 289-90 (3d Cir. 2008)).

a

290 (3d Cir. 2000); Dicker v. Glunt^o. 10-5240, 2011 WL 286090, at *6 (E.D. Pa. May 25,
2011), report and recommendation adopted, No. 10-5240, 2011 WL 3862012 (E.D. Pa. Aug. 31,
2011). Here, the PCRA Court found Sloan’s and Edwards’ purported alibi testimony
“incredible” and “specious.” Moreover, the PCRA Court credited counsel’s testimony that he
was unaware of Sloan and Edwards as potential alibi witnesses and found Petitioner’s testimony
to the contrary “incredible and completely self-serving.” In light of these credibility
determinations, the state court’s rejection of this claim was reasonable. See Strickland, 466 U.S.
at 691 (“Counsel’s actions are usually based, quite properly, on informed strategic choices made
by the defendant and on information supplied by the defendant. In particular, what investigation
decisions are reasonable depends critically on such information.”).
The Court respectfully recommends denying this claim as meritless.
G.

Ground Nine: Ineffective Assistance for Failing to Move for Dismissal Under
Pennsylvania Rule of Criminal Procedure 600

In Ground Nine, Petitioner avers that trial counsel was ineffective for failing to protect
his speedy trial rights under Pennsylvania Rule of Criminal Procedure 600, and that “[a]ll prior
counsel were ineffective.” (Hab. Pet. 41, ECF No. 1). The Commonwealth responds that the
state courts reasonably rejected this claim. (Resp. to Pet. 27-28, ECF No. 22). The Court finds
this claim is procedurally defaulted under an independent and adequate state rule.
The PCRA Court explained:
Rule 600 requires the Commonwealth to bring a defendant to trial
within 365 days after the complaint is filed. Any periods of time
during which the defendant or his attorney are unavailable or any
continuances requested by the defense are excluded from the 365
day computation.
PCRA 1925(a) Op. at 9 (citing Pa. R. Crim. P. '600(C)(3)(a)(b)). When a defendant alleges a
Rule 600 violation, the trial court shall conduct a hearing to determine whether the

G

Commonwealth exercised due diligence in bringing the case to trial. Id. If the Commonwealth
failed to exercise due diligence, the court shall dismiss the charges. Id. If the Commonwealth
exercised due diligence or the circumstances causing delay were beyond the Commonwealth’s
•control, the court should deny the motion to dismiss. Id.
r

The PCRA Court explained that Petitioner was arrested on August 9, 2003, so the
mechanical run date under Rule 600 was August 9, 2004.

Id. He was arraigned on October 29,

2003, and his case was continued to December 4, 2003. Id. It was again continued to January 7,
2004, for new counsel and pre-trial proceedings. Id. The period from December 4, 2003 to
January 7, 2004 “was specially ruled excludable.” Id. On January 16, 2004, defense counsel
was unavailable, and the case was continued until March 18, 2004. Id. On that day, the defense
requested another continuance, and the case was continued until April 14, 2004. Id. On October
12, 2004, the defense requested a continuance to.investigate alleged alibi witnesses. Id. at 10.
The case was continued until April 5, 2005. Id. On April 7, 2005, the defense requested another
continuance, due to a medical emergency. Id. The case was continued until November 7, 2005,
“the earliest possible date ...” Id. In all, “there were a total of 512 excludable days prior to the
commencement of [Petitioner's trial on November 9, 2005.” Id. When added to the original
mechanical run date, the adjusted run date became May of 2006. Id. Thus, there was no Rule
600 violation, and counsel was not ineffective. Id.
On PCRA appeal, the Superior Court determined this claim was waived because
Petitioner failed to develop his claim on appeal. The Superior Court found:
[Although all of the continuances referenced by the PCRA court
appear on the trial docket, few include notations as to who

18 The mechanical run date runs 365 days from the filing of the complaint.
Commonwealth v. Berryhill, No. 3506 EDA 2015, 2017 WL 3050118, at *2 (Pa. Super. July 19,
2017) (citing Commonwealth v. Ramos, 936 A.2d 1097, 1101 (Pa. Super. 2007)).

st

requested the continuance. The record only contains one written
motion for continuance - the request made by trial counsel on
October 11, 2004, which resulted in a continuance until April 5,
2005. The docket otherwise only specifically states, that the
. continuances from December 4, 2003 to January 7, 2004 and April
11, 2005 to October 26, 2005 were attributable to the defense.
Edwards, No. 1508 EDA 2014, slip op. at 10 (citations omitted). The Superior Court observed
that in presenting his argument on appeal, Petitioner “state[d] only that April 11, 2005 through
November 9, 2005 were excludable[.]” Id. He made no argument regarding the other dates
identified by the PCRA Court, nor did he discuss the “dates that are clearly excludable as
reflected in the criminal docket and in trial counsel’s continuance letterf.]” Id. Thus, the
Superior Court found the record was “insufficient” to determine whether Petitioner’s % ineffectiveness claim had “any merit.” Id. at 10-11. The Superior Court explained:
The law is clear: “[I]t is Appellant’s responsibility to supply this
Court with a complete record for purposes of review. A failure by
Appellant to insure that the original record certified for appeal
contains sufficient information to conduct a proper review
constitutes waiver of the issue sought to be examined.”
Id. at 11 (quoting Commonwealth v. Martz, 926 A.2d 514, 524-25 (Pa. Super. 2007)). Thus, the
Superior Court found the claim waived.19 Id.
The Superior Court’s waiver finding precludes review of this claim. Although the
Superior Court did not name the specific rule, its waiver finding was based on an independent
and adequate state procedural rule articulated in Martz: that an appellant’s failure to develop the
record on appeal results in waiver. See Martz, 926 A.2d at 524-25 (“It is black letter law in this
jurisdiction that an appellate court cannot consider anything which is not part of the record in the

19 The Superior Court also explained that even if the claim was not waived, Petitioner
was not entitled to relief “because he failed to present any argument in support of the other two
prongs of the test for ineffective assistance of counsel. This failure is also fatal to his claim.”
Edwards, No. 1508 EDA 2014, slip op. at 11 (citing Bomar, 104 A.3d at 1188).

case. It is also well-settled in this jurisdiction that it is Appellant’s responsibility to supply this
Court with a complete record for purposes of review.”) (citing Commonwealth v. Young, 317
A.2d 258 (Pa. 1974); Commonwealth v. Hallock, 722 A.2d 180, 181 (Pa. Super. 1998);
Commonwealth v. Boyd, 679 A.2d 1284, 1290 (Pa. Super. 1996)). This rule has found to be
independent and adequate. See Marti v. Mooney, No. 13-2570, 2016 WL 2347189, at * 10 (M.D.
Pa. May 4, 2016). This Court agrees with that assessment.
Because the Superior Court invoked an independent and adequate state law ground in
finding waiver, Ground Nine is procedurally defaulted. The Court cannot review the merits of ~
"-"this claim unless Petitioner establishes cause and prejudice or a fundamental miscarriage of
justice. He argues “[a]ll prior counsel were ineffective,”20 (Hab. Pet. 41, ECF No. 1), PCRA
counsel “failed to refute the state claim of this issue” (Traverse 25, ECF No. 25), and the PCRA
Court’s misrepresentation of the record was a “fundamental miscarriage of justice” (id.). These
arguments fail.
PCRA counsel’s purported ineffectiveness does not establish cause. The PCRA Court
adjudicated the ineffective assistance of trial counsel claim on the merits, and the claim was not
waived until collateral appeal. Because the claim was not waived until collateral appeal, PCRA
counsel’s alleged ineffectiveness cannot constitute cause; Martinez does not apply. See Norris v.
Brooks, 794 F.3d 401,404 (3d Cir. 2015) (“[T]he [Martinez\ exception applies only to error in
initial-review collateral proceedings, not appeals from those proceedings.”); see also id. at 405;
Woodson v. Delbalso, No. 14-558, 2016 WL 1242278, at *6 (M.D. Pa. Mar. 30, 2016),
certificate ofappealability denied (Oct. 13, 2016). Thus, Petitioner has not established cause.
20 Petitioner has not explained how direct appeal counsel was ineffective in relation to
this claim. (See Hab. Pet. 41, ECF No. 1; Traverse 25-35, ECF No. 25). To the extent he asserts
that direct appeal counsel was ineffective as a substantive claim or as cause to overcome default,
this claim is too insufficiently pled to warrant relief. See Zettlemoyer, 923 F.2d at 298.

Iv

Additionally, Petitioner’s claim that the PCRA Court misrepresented the record does not
establish a fundamental miscarriage of justice. To show a fundamental miscarriage ofjustice, a
petitioner must generally demonstrate actual innocence by presenting new, reliable evidence of
his innocence. See Schlup v. Delo, 513 U.S. 298,- 326-28 (1995); Cristin v. Brennan, 281 F.3d
404, 412 (3d Cir. 2002) (citing Keller, 251 F.3d at 415-16). Petitioner has not met that burden.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
H.

Grounds Ten through Twenty-One: Procedurally Defaulted Claims Not
Presented to the State Courts Prior to Filing Habeas Petition

Grounds Ten through Twenty-One are procedurally defaulted. Prior to filing his habeas

i. a

petition, Petitioner did not present these claims to the state court, so they were unexhausted and
procedurally defaulted pursuant to the PCRA’s one year statute of limitations.21 See supra n.6.
Even assuming, arguendo, that Petitioner raised these claims in his December 2015 PCRA
petition, see supra n.5; (see also Traverse 36, ECF No. 25), that petition was found to be
untimely filed by the state courts; thus, the claims raised therein are procedurally defaulted under
an independent and adequate state rule. Edwards, 201,7 WL 2875422, at *2 (“[W]e conclude
[Petitioner’s] petition fails to overcome the PCRA time-bar.”); see, e.g., Teague v. Johnson, No.
02-622, 2003 WL 25573367, at *4 (W.D. Pa. June 17, 2003) (“Petitioner has failed to comply
with the state PCRA statutory requirement that his PCRA petition be filed within one year of his
judgment becoming final.... The failure to timely file his PCRA petition constitutes a
procedural default.”).
Petitioner acknowledges that he did not present Grounds Ten through Twenty-One to the

-21 Petitioner’s attempt to raise these-claims in a pro «-supplemental-filing on June 4,
2013, while represented by counsel, does not constitute fair presentation. As noted above,
Pennsylvania does not permit hybrid representation. See supra n.3.

M
I

state courts. (Hab. Pet. ^ 13(a), ECF No. 1). He raises cause and prejudice and a fundamental
miscarriage ofjustice to overcome his default. As cause, he argues all prior counsel failed to
raise his claims, and PCRA counsel abandoned him. (Id.). Additionally, Petitioner argues that
“[t]he failure to consider the claims will result in a fundamental miscarriage ofjustice” because
on or around August 5, 2015, he mailed a PCRA petition that was “separated from a parcel
during hand[l]ing” due to prison officials “sabotaging” him 22 (Id. at 18).
For the most part, Petitioner’s allegations of cause and prejudice and a fundamental
miscarriage ofjustice do not apply to his defaulted claims, and therefore, cannot overcome
Petitioner’s default. For instance, his argument that PCRA counsel failed to present his claims
can only potentially establish cause for a defaulted claim of ineffective assistance of trial
counsel, pursuant to Martinez. Petitioner’s allegations that PCRA counsel ineffectively failed to
present any other type of claim cannot establish cause. See, e.g., Murray v. Diguglielmo, No. 094960, 2016 WL 3476255, at *4 (E.D. Pa. June 27, 2016) (“These claims do not involve
ineffective assistance of [trial] counsel. Martinez does not apply.”). Additionally, Petitioner’s
claims of ineffective assistance of direct appeal counsel, in addition to being'underdeveloped,
cannot establish cause, because these claims are, themselves, defaulted. See supra Part III.A;
Edwards,.529 U.S. at 451-54; Sandler, 2008 WL 2433094, at *21 n.4; Grasty, 2003 WL
22247613, at *1 n.l. Finally, Petitioner’s allegations that prison officials “sabotag[ed]” him
cannot establish a fundamental miscarriage ofjustice. See supra Part III.G; Schlup,-513 U.S. at
326-28; Cristin, 281 F.3d at 412 (“To show a fundamental miscarriage ofjustice, apetitioner
must demonstrate that he is actually innocent of the crime ... by presenting-new evidence of
innocence.”) (citation and quotation marks omitted). Thus, Petitioner’s arguments on these

22 No such petition appears on the state criminal docket sheet.

points fail, and will not be addressed further.
With the foregoing principles in mind, the Court will examine Grounds Ten through
Twenty-One.
1.

Ground Ten: Claims Regarding Improper Vouching and Bolstering
of Commonwealth Witnesses

In Ground Ten, Petitioner raises a number of accusations:
Ground 10: Defendant was denied the right to effective assistance
of counsel- under the Sixth Amendment and the due process Clause
under the Fourteenth Amendment to the United States Constitution
when trial counsel failure [sic] to object to the improperly voching
[sic] and bolstering the credibility of Commonwealth witness
Travis Hendricks [sic].
Supporting Facts: Defendant was prejudice by the commonwealth
improperly vouching and bolstering the credibility of police
OFFICER Flanders about what Travis had seen and witness [sic]
and what he didn’t see and witness was bolstered at trial. By the
Commonwealth withheld exculpatory and impeaching information
that was helpful to the defense. This was prosecution misconduct.
Trial counsel failed to make a timely objection to properly conduct
a pretrial investigation and counsel failed to challenge the
identification testimony was at a critical stage. Had trial counsel
made a timely objection there is a reasonable probability of a
. different outcome absent this prosecution misconduct .and
counsel’s error. PCRA counsel was ineffective for failing to raise .
trial counsel’s ineffectiveness.
(Hab. Pet. 43, ECF No. 1; see also Traverse 36-44, ECF No. 25). The Commonwealth responds
this claim is procedurally defaulted and is “so vague and disorganized that it is, candidly,
impossible to decipher, let alone address.” (Resp. to Pet. 29, ECF No. 22). The Court similarly
cannot discern Petitioner’s argument.

23 In Grounds Ten through Twenty-One, Petitioner alleges ineffective assistance of trial
and/or appellate counsel (Ground 11, 18, and 20), due process violations (Ground 16 and 19), or
both (Grounds 10, 12, 13, 14, 15, 17, and 21), in addition to other claims (Ground 10, 15, and
19). Petitioner’s procedurally defaulted claims for which he has not asserted a viable cause and
prejudice or fundamental miscarriage of justice argument will not be addressed.

63

I •

As noted above, these claims are procedurally defaulted; Petitioner did not raise them in
the state courts prior to filing his habeas petition, and to the extent he raised them in his
December 2015 PCRA petition, that PCRA petition was found to be untimely by the state .
courts.24 See supra Part III.H. Although Petitioner alleges PCRA counsel’s ineffectiveness as
cause to overcome his default, he cannot establish cause pursuant to Martinez. Petitioner’s
allegations are extremely vague, and preclude a finding that the defaulted ineffectiveness claims
are substantial. See Zettlemoyer, 923 F.2d at 298; Torres-Rivera v. Bickell, No. 13-3292, 2014
WL 5843616, at *6 (E.D. Pa. Nov. 10, 2014) (“[V]ague allegations have no potential merit, [so]
petitioner has not met the threshold showing Martinez required[.]”) (citing Palmer v. Hendricks,
592 F.3d 386, 395 (3d Cir. 2010)). Thus, he has not established cause to overcome the default of
*—

his claims.

The Court respectfully recommends Ground Ten be dismissed as procedurally defaulted.
2.
)

Ground Eleven: Ineffectiveness for Failing to Impeach Walter
Stanton

In Ground Eleven, Petitioner avers trial counsel was ineffective for failing to impeach
Walter Stanton regarding his possible bias, interest, corrupt motive, and personal grudge, and *
thus, he was deprived of “his right to inquire into Walter Stanton testify falsely.” (Hab. Pet. 44,
ECFNo. 1). Additionally:
Had trial counsel not filed a motion in limine and the trial court
erred by not letting the jury here [sic] evidence that Walter Stanton
filed false criminal charges against the defendant on 10-3-2002,
and the defendant had to pay commonwitness [sic], Walter Stanton
to drope [sic] the charges that [Petitioner] did not do.

24 Petitioner’s Post Sentence Motion alleged that the Commonwealth withheld evidence
•and bolstered the credibility of Commonwealth witnesses. (See Traverse 42-43, ECF No. 25).
This was not sufficient to fairly present Petitioner’s claim to the state courts, as Petitioner’s Post
Sentence Motion was dismissed as untimely. (Order, SCR No. D9).

by

V .

•^
!

' x

as-)d acri »i jiirir aanoqasit ati nieoion riilBswiiommoO sriT .noilojn 6.ilotK b^LiTDVSfl.lcsfccno
hi twoO

ads bos ,(££ .o543DH‘#lE..to3.ttf .qas.fl)oaimii or fioiiorabsnoqii/qsi#sisscl t-i stdnxu/

almcq bsblyoiq and isnoitbaH noit&h
lb

. t

3dt .bssbnl .noitoiri a riouz atfiool orald&ffij

.

;(££ .oH 303 (t£ Jt/l ot..qz»K): $\sawnoamoO $&\<5 bslh siifrnft ni aoitomfib?

)

i

e'lMoiiilol ,zmiT .(6-8 t& lOKbiM I .174 aite %$z) ;($ ts IQ\H\1 i.TM gmiio) (££ .oM 33H

:'

.bioosi odl\d bstaibfi-itbob ei snimil m aoboms garlft to! avtodfiani &sw fsaiujoo icrf) mudo
\

?.i miab Isanuos Ishtlo a&iRtzh-as svitosflsm bdifosfeb ^m^habim gOsnoifi/sl seunosS
%

V

*

.

tflutoaq29i hnoO srfT’ .£#fou&Jl. ot tasuzruq szu&o bsriajMsjgs. ran aarfbd^lBitfl&terfua ion

/

..boJU/slob ^ILstubwcnq es b'oaeimaib bd miij[3 ^idl abnsmcrrooo'i
tnsrastfitS aWanoftitsTgaiEnsgaH amteD-:9vfowT bmnnt)
.• /

• • ;£■

i

/

e 2?OTqqLf2 oi giiiiirii iafc svimlislai asW baanoo ism emails lsnoitiJsS fo-/lswT bagnO.nl
V*

'

‘ s

•r

. z.

ot JdfiuzTjjq^itimsw n iwvig gated inoriiiw.SacnOtodoiM svitootsG-oi wb% arftnsrmtcte
' i;

i

v<jfia&t insina/ats orit .(I ,oM 30Ht,££ .tbl 4sH)‘ .(ddfci) bt£ ?M £8£-,a«osn&s: M abturiV.
J

.rinidlo 'sifib>njcff sAonoiliA?*-! gmbnbai ^orteanolftrfBoiriqingoid bsmoonoo aeorD sviJosbG
•••--•

*

.

.

'.

■

scto ni 3Dnstedir<* lo giibit\njs '(pz ion bib isttoftLrsl ponsbizsi btm vomanibin prighw prigteri
i

bas b^Umteb ei-mielb aidt ebnoqasi tWasy/noauncD'ariT • .(*£~.I£ jb £0-3 hi I .T.W) .issmsteia
r•

•• \

,(££ .-oVl 303 i 11 .i&i oi .qaafl).4&ssDiwrii

oiolsd bbeifli $7sq<nqto '{frtei Jon zbw li s&u.'Ksd' botiusteb ^Ucibboooiq.^-minb <ririT ,

.

.

• '

a

iobqy 92«£0 bsdaiictejw ton serf i3doitiJe»3 ,H;II I bb3 'wqsz

■.:'*

, .aftuop psaz arlt

. srfT .IcifatJtsdya ton zi mblo Ismoq lahtlo ooastaiaee ovitobBbm gmvliobm; $rrl oai/sobd'

- ■

znoilKJOp1* dotf2 .coityrmolni [Boxdq&igoicf xbo bsmoonoo aaoiO ovbDotoC '(d bodes 2nob??up .
'Sri; airftwilfil <#2aqmsz IshJstq to gdiiood stsiqrnoo^ot -(Tsaasoan stab taoulqsigoiri s/ft smsaa ot
IC6.,S82 .?.U d^;s4WHU'..v wn&yV^wrc^ ,akwM ot,fnoitqso'xs 'nottasup gnbft>od'iMii:i/oi'J'
. i

I

X

r

Ar ■

i

'• iJ
. i

•

:
\. •

.N

(1990) (citation omitted). Under this exception, police officers may ask routine booking
questions such as the suspect’s ‘“name, address, height, weight, eye color, date of birth, current
age, or [other] matters reasonably related to the police’s administrative concerns’ without.
obtaining a waiver of suspect’s Miranda rights.” United States v. Barnes, No. 05-134, 2005 WL
1899502, at *4 (E.D. Pa. Aug. 8, 2005) (citation omitted). These biographical questions asked
by Detective Gross fell within the “routine booking question” exception, so there was no
Miranda violation. Trial counsel was not ineffective for failing to raise a Miranda issue that did
not exist. See Parrish v. Fulcomer, 150 F.3d 326, 328 (3d Cir. 1998) (counsel will not be
considered, ineffective for failing to raise a meritless argument). Thus, the underlying trial
counsel ineffectiveness claim was not substantial, and Petitioner has not established cause.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
4.

Ground Thirteen: Claims Regarding Jury Instructions

In Ground Thirteen, Petitioner alleges, inter alia, that trial counsel was ineffective for
failing to object to jury instructions on reasonable doubt, first degree murder, firearm carried
without a license, and direct and circumstantial evidence because “they were misleading and
confusing to the jury.” (Hab. Pet. 46, ECF No. 1). The Commonwealth responds that the claim
is defaulted and “so cursory” as to preclude meaningful analysis. (Resp. to Pet. 33, ECF No. 22).
This claim is procedurally defaulted because it was not fairly or properly raised in the
state courts. See supra Part III.H. Petitioner asserts cause pursuant to Martinez. However, he
has not established that his underlying claim is substantial. As the Commonwealth points out,
Petitioner does not specify what elements he believes were missing from the jury instruction,
why he believes the jurors were confused, or what, prejudice he suffered as a result. (Resp. to
Pet. 33, ECF No. 22). The Court agrees with this assessment, and finds Petitioner’s claim is too

6*7

vague to establish that his underlying trial counsel ineffectiveness claim is substantial. See
Zettlemoyer, 923 F.2d at 29$;.Torres-Rivera, 2014 WL 5843616, at *6. Thus, Petitioner has not
established cause to overcome the default of this claim.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
5.

Ground Fourteen: Claims Regarding Flight Jury Instruction

In Ground Fourteen, Petitioner argues trial counsel was ineffective for failing to object to
the trial court’s “improper flight jury instruction 3.14,” which “exposed facts not in evidence.”
• (Hab. Pet. 47, ECF No. 1). He also argues counsel was ineffective for failing to investigate; he
avers that he did not actually flee, but rather, he “was visiting his girl friend down south.” (Id.;
Traverse 51, ECF No. 25). The Commonwealth responds this claim is procedurally defaulted,
“fatally underdeveloped,” and meritless. (Resp. to Pet. 33-34, ECF No. 22).
Petitioner’s claim is procedurally defaulted because it was not fairly or properly
presented to the state courts. See supra Part III.H. Petitioner cannot establish cause to overcome
that default because his underlying ineffective assistance of trial counsel claim is not substantial.
*

*

.

The parties and the trial court extensively discussed the propriety of a flight instruction. (N.T.
11/17/05 at 110-22). Counsel objected to specific portions of the instruction, including those
suggesting that Petitioner “hid from the police,” and that Petitioner fled. (Id. at 112-13, 117).
However, counsel did not object to the charge being narrowed to state that Petitioner left the
jurisdiction because that was better than “the alternative” of the Commonwealth introducing
evidence from the Fugitive Squad. (Id. at 115-16). The trial court held the issue under
advisement, until Detective Michael Egenlauf testified that Petitioner’s case was given to the
Fugitive Squad after he was unable to apprehend Petitioner, and that Petitioner was found in
South Carolina, where he waived extradition. (Id. at 122, 186-88). Thereafter, the trial court

/

revisited the flight instruction issue. (N.T.'l 1/18/05 at 30-39). Counsel again argued that
“there’s no evidence the defendant fled” and to use words like “fled” and “fleeing” has “a
different connotation” than to say that Petitioner “left.” (Id. at 34-35). After hearing argument
on the issue, the trial court noted, “I think what we have here is what we’re going to have before
the jury, and that is, the argument with respect to what that leaving constituted.” (Id. at 37). The
trial court ultimately gave the following instruction:
Ladies and gentlemen, there was evidence presented in this
case, and I’m speaking of the testimony of Detective Egenlauf,
which tended to show that the defendant left Philadelphia after this
incident and was found in South Carolina. He waived extradition
on or about July 21, 2003, and was returned to Philadelphia. The
credibility, weight and effect of this evidence is for you to decide.
Generally speaking, when a crime has been committed and
a person thinks that he is or may be accused of committing it and
leaves the jurisdiction, such evidence is circumstance tending to
prove the person is conscious of guilt. Such evidence does not
necessarily show consciousness of guilt in every case. A person
may leave a jurisdiction for some other motive and may do so even
though innocent.
Whether the evidence of leaving the jurisdiction in this case
should be looked at as tending to prove guilt depends upon the
facts and circumstances of this case, and especially upon the
motives which may have prompted the person to leave the
jurisdiction. . You may not find the defendant guilty solely on the
basis of evidence that he left the jurisdiction.
(N.T. 11/18/05 at 30-39,125-26).
This instruction only referenced evidence introduced through Detective Egenlauf s
testimony, and thus, did not “expose” the jury to facts not in evidence. Moreover, trial counsel
pursued a reasonable strategy of narrowing the instruction, in lieu of the Commonwealth
presenting more harmful evidence from the Fugitive Squad. While counsel did not present the
specific allegation that Petitioner left the jurisdiction to visit his girlfriend, he presented the very

y\

argument that Petitioner presents now: that Petitioner did not flee, but simply leftthe
jurisdiction. Because trial counsel acted reasonably, Petitioner has not established that his
underlying ineffectiveness claim is substantial.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
6.

Ground Fifteen: Ineffectiveness for Failing to Challenge Legality of
Sentencing Statute

In Ground Fifteen, Petitioner argues trial counsel was ineffective for failing to challenge
the legality of “defendant illegal sentence statute” for first degree murder.25 (Hab. Pet. 48, ECF
No. 1; Traverse 52, ECF No. 25). He appears to argue counsel should have challenged thelack
of a written sentencing order in contravention' of 42 Pa. Cons. Stat. § 9764. (See Traverse 56,
ECF No. 25); Crim. Docket at 34. The Commonwealth responds that Petitioner’s claim is
*

procedurally defaulted and meritless. (Resp. to Pet. 35, ECF No. 22):
Petitioner’s ineffectiveness claim is procedurally defaulted. See supra Part III.H.
Petitioner has not established cause under Martinez because he has not established that his
underlying ineffectiveness claim is substantial. Petitioner’s state court docket reflects that
Petitioner filed a state writ of habeas corpus alleging that he was unlawfully detained due to the

25 Petitioner also asserts all prior counsel violated Pennsylvania Rules of Professional
Conduct 3.8, 5.3, and 8.4 and that the trial court imposed an illegal sentence because his file does
not contain “statutory authorization.” (Hab. Pet. 48, ECF No. 1; see also. Traverse 52, ECF No.
25). His first allegation, in addition to being defaulted, is not cognizable. See supra Part III.C;
Estelle, 502 U.S. at. 67-68. The second allegation lacks merit. See Roman v. DiGuglielmo, 675
F.3d 204, 209 (3d Cir. 2012) (“[W]e may bypass the exhaustion issue altogether should we
decide that the petitioner’s habeas claim fails on the merits.”). The Pennsylvania Superior Court
has found that “[t]he lack of a particular written sentencing order form does not invalidate an
otherwise clearly valid sentence.” Stultz v. Giroux, No. 14-4570, 2015 WL 9273429, at *2 (E.D.
Pa. Dec. 21, 2015), certificate of appealability denied (July 21,2016) (citing Joseph v. Glunt, 96
A.3d 365, 371-73 (Pa. Super. 2014)). Petitioner’s sentencing hearing transcripts and criminal
docket sheet confirm the imposition of his sentence. (See N.T. 02/03/06 at 17:8-25, 18:2-14;
Crim. Docket at 4, 34). Moreover, Petitioner has not established that the Federal Constitution
requires a written and signed sentencing order form. Stultz, 2015 WL 9273429, at *2. ■

1b

lack of a written sentencing order, in violation of 42 Pa. Cons. Stat. § 9764(a)(8). Crim. Docket
at 34. In its Notice .of Intent to Dismiss that writ of habeas corpus, the PCRA Court explained:
The Honorable Kathym Lewis entered a sentencing order in this
matter on February 3, 2006. The Superior Court of Pennsylvania
has held that even when the Department lacks possession of a
written sentencing order, it has continuing authority to detain a
prisoner where a criminal docket provided by trial court and a
transcript of the sentencing hearing confirm the imposition, and
legitimacy, of the prisoner’s sentence. Joseph v. Glunt, 96 A.3d
365, 372 (Pa. Super. 2014). Thus, even in the absence of a written
sentencing order, the DOC retains detention authority. Id.
Crim. Docket at 34. The Superior Court also rejected Petitioner’s § 9764 argument. Edwards,
2017 WL 2875422, at *4 (citing Joseph, 96 A.2d at 371-72). The state courts’ finding on this
point is a determination of state law to which this Court must defer. See Estelle, 502 U.S. at 6768. Accordingly, the § 9764 argument Petitioner avers counsel should have raised lacks merit.
Because counsel cannot be ineffective for failing to raise a meritless argument, Petitioner has not'
established that this trial counsel ineffectiveness claim is substantial. See Parrish, 150 F.3d at
328.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
7.

Ground Seventeen: Ineffectiveness for Failing to Ask for an
Inflammatory Photograph Instruction

In Ground Seventeen, Petitioner avers that trial counsel was ineffective for failing to ask
for a jury instruction on inflammatory photographs that the trial court previously agreed to give.
(Hab. Pet. 50, ECF No. 1). Petitioner clarifies in his Traverse that he wanted the instruction for
Commonwealth Exhibits C9-A and C9-B, which were autopsy photographs showing entrance
wounds to the victim’s arm and neck. (Traverse 60, ECF No. 25) (citing N.T. 11/16/05 at 3032); (see also N.T. 11/16/05 at 16, 20), The Commonwealth responds this claim is defaulted,
unreviewable, and internally contradictory. (Resp. to Pet. 36-37, ECF No. 22).
i

'll

This claim is procedurally defaulted because it was not fairly or properly presented to the
state courts. See supra Part III.H. Petitioner has not established cause to overcome the default
pursuant to Martinez because his underlying ineffectiveness claim is not substantial. Under
Pennsylvania law, for a photograph to be considered inflammatory, “the depiction must be of
such a gruesome nature or be cast in such an unfair light that it would tend to cloud an objective
assessment of the guilt or innocence of the defendant.” Commonwealth v. Dones, No. 597 MDA
2016, 2017 WL 57156, at *3 (Pa. Super. Jan. 5, 2017) (citing Commonwealth v. Hubbard, 372
A.2d 687, 697 (Pa. 1977)). Additionally, the trial judge must assure the defendant has a fair trial,
and has discretion to give curative instructions, which ‘“are not always necessary, or even
desirable.’” Id. (quoting Commonwealth v. Pezzeca; 749 A.2d 968, 971 (Pa. Super. 2000)).
During Petitioner’s trial, the trial court described the autopsy photographs as “not inflammatory”
and “pretty well sanitized.” (N.T. 11/17/05 at 5). Petitioner has not explained how the
photographs were inflammatory, and has not identified how the lack of a curative instruction
denied him a fair trial, beyond conclusory allegations that the photographs had-a “possibly
inflammatory, passion and prejudice effect on the jury.” (Hab. Pet. 50, ECF No. 1; Traverse 60,
ECF No. 25). Thus, Petitioner has not established that the trial court erred in declining to give a.
curative instruction, or that counsel was ineffective for failing to ask for a.curative instruction.
See Parrish, 150 F.3d at 328 (counsel will not be found ineffective for failing to pursue a
meritless argument). Because the underlying ineffectiveness claim is not substantial, Petitioner
has not established cause pursuant to Martinez.
The Court respectfully recommends this claim be dismissed as procedurally defaulted.
8.

Ground Eighteen: Ineffectiveness for Failure to Obtain an Expert
Report Regarding Petitioner’s Mental Health and Social History

In Ground Eighteen, Petitioner argues trial counsel was ineffective for failing to “obtain

11

\

an expert to prepare defendant mental health history and social history,” and “conduct a pretrial
investigation because this was a death penalty case at first.” (Hab. Pet. 51, ECF No. 1). The .
Commonwealth responds this claim is defaulted and meritless. (Resp. to Pet. 37, ECF No. 22).
These claims are procedurally defaulted because they were not fairly or properly
presented to the state courts. See supra Part III.H. Petitioner has not established cause to
overcome his default. He has not established that his underlying claims are substantial, and thus,
is not entitled to review under Martinez’ narrow exception.
First, Petitioner has not provided the name of an expert, an affidavit, or an expert report
to support his claim that counsel was ineffective for failing to obtain an expert. Prejudice
resulting from counsel’s ineffectiveness “cannot be based on mere speculation about the
possibility of finding an expert witness, nor can it be based on mere speculation about the
possible testimony.” Dobson v. United States, No. 13-1711, 2016 WL 4941994, at *4 (D.N.J.
Sept. 15, 2016) (citing Duncan v. Morton, 256 F.3d 189, 201-02 (3d Cir. 2001)).
Petitioner also suggests that counsel’s purported failure to conduct a pre-trial
investigation caused him prejudice at sentencing. However, Petitioner was convicted of first
degree murder, and under Pennsylvania law, the only available sentences for a first degree
murder conviction are “death or life imprisonment.” 42 Pa. Cons. Stat. § 9711(a)(1); see also 18
Pa. Cons. Stat. § 1102(a)(1) (“[A] person who has been convicted of murder of the first degree . .
. shall be sentenced to death or to a term of life imprisonment in accordance with 42 Pa. Cons. •
Stat. § 9711 [-]*’); Commonwealth v. Palermo, No. 247 EDA 2017, 2018 WL 2728881, at *2 (Pa.
Super. June 7, 2018) (“Our legislature has determined that only two sentences are permissible for
an adult convicted of first-degree murder: death or life imprisonment.”). Contrary to Petitioner’s
assertion that “this was a death penalty case at first,” by the time trial started, he was not facing a

73

.capital sentence. (See N.T. 11/09/05 at 51). Thus, trial counsel’s alleged failure to conduct a
pre-trial investigation could not have affected the imposition of Petitioner’s life sentence under.
Pennsylvania law, and Petitioner has not established prejudice.
I

Because Petitioner’s underlying claims are not substantial, Petitioner has not established
cause under Martinez. The Court respectfully recommends these claims be dismissed as
procedurally defaulted.
9.

Ground Nineteen: PCRA Counsel’s Ineffectiveness

In Ground Nineteen, Petitioner asserts PCRA counsel was ineffective for failing to
investigate the record and raise trial and appellate counsel’s ineffectiveness. (Hab. Pet. 52, ECF
No. 1). The Commonwealth responds this claim is defaulted and unreviewable. (Resp. to Pet.
38, ECF No. 22). The Court finds that in addition to being procedurally defaulted, this claim is
not cognizable. See supra Part III.H and supra n.13;see also 28 U.S.C. § 2254(i); Martel, 565
U.S. at 662 n.3 (2012). The Court respectfully recommends thisclaim be dismissed.
10.

Ground Twenty: Ineffectiveness Regarding Discovery and Police
Reports by Officer Walsh and Sergeant Przepiorka

In Ground Twenty, Petitioner makes a number of ineffectiveness claims: (1) trial counsel
was ineffective for failing to file a motion to suppress and challenge the reliability and/or
suggestiveness of identification procedures (“identification procedure claims”); and (2) trial
counsel was ineffective for failing to adequately review, investigate, and use discovery materials
to impeach eyewitnesses (“discovery claims”).26 (Hab. Pet. 53, ECF No. 1; Traverse 67-74, ECF
No. 25). The Commonwealth responds this claim is procedurally defaulted, and “so cursory,

26 Petitioner also alleges that all prior counsel were ineffective, but he fails to explain
how appellate counsel was ineffective in any way. (See Hab. Pet. 53, ECF No. 1). To the extent
he asserts that appellate counsel was.ineffective as a substantive claim or as cause to overcome
default, this claim is too insufficiently pled to warrant relief. See Zettlemoyer, 923 F.2d at 298.

V

underdeveloped, and incoherent as to defy review.” (Resp. to Pet. 38, ECF No. 22).
Ground Twenty is procedurally defaulted because it was not fairly presented to the state
courts prior to the filing of the instant habeas petition, and it was not properly presented to the
state courts after the filing of the instant habeas petition. See supra Part III.H. Petitioner raises
cause and prejudice and a fundamental miscarriage of justice to overcome the default of his
claims. Specifically, Petitioner argues that PCRA counsel was ineffective, and that the
statements taken by Officer Walsh and Sergeant Przepiorka qualify as new evidence under ^
Schlup. See supra Part III.H; (Traverse 74, ECF No. 25). Both of his arguments to overcome
default lack merit.
Petitioner has not established cause and prejudice because his underlying ineffective
assistance of trial counsel claims are not substantial.
Petitioner’s identification procedure claims are too vague to be substantial. See
Zettlemoyer, 923 F.2d at 298; Torres-Rivera, 2014 WL 5843616, at *6. Petitioner has not
explained what identification procedures he finds unreliable and/or suggestive, how the
eyewitnesses were allegedly influenced by these procedures, or what evidence counsel should
have moved to suppress via Pa. Rule of Crim. P. 581. Therefore, Petitioner’s ineffectiveness
claims concerning the identification procedures are not substantial.
Petitioner’s discovery claims are likewise not substantial. Petitioner alleges counsel
failed to review the discovery materials, interview police officers named therein, and use reports
by Officer Michael Walsh and Sergeant John Przepiorka to impeach two eyewitnesses.

(Hab.

27 Petitioner does not identify Officer Walsh and Sergeant Przepiorka by their full names
until his Traverse; he simply refers to them as “[Ojfficer Michael” and “Sgt. John” in his habeas
petition. (See Hab. Pet. 53, ECF No. 1). Additionally, the police reports to which Petitioner
refers were, in fact, interviews of Sergeant Przepiorka and Officer Walsh, authored by Detective
Cummings and Detective Cannon, respectively. (See Traverse 68-70, ECF No. 25).

¥ •

Pet. 53, ECF No. 1). Petitioner elaborates in his Traverse that if trial counsel had reviewed the
discovery materials, he would have learned that neither Stanton nor Hendrick saw the actual
shooting. (Traverse 67, ECF No. 25).
Specifically,.Petitioner claims that if trial counsel had reviewed the discovery materials,
counsel would have learned that Stanton told officers that he “was around the comer and did not
in fact see the shooting” (Traverse 67, ECF No. 25), and that counsel should have impeached
Stanton with these discovery materials (Hab. Pet. 53, ECF No. 1). This claim is not substantial
because Petitioner did not suffer prejudice; other evidence supported Petitioner’s identification
as the shooter. For instance, Hendrick testified that he saw Petitioner with “a gun out the back of '*'■
the [car] window,” pointed toward the victim. (N.T. 11/14/05 at 116, 118). When Hendrick saw Petitioner get out of the car with the gun, Hendrick ran out back and called 911. (Id. at 123).

-

About five minutes after hearing gunshots, Hendrick returned to the front of the house and saw
the victim “laying like right beside the steps with blood on his back.” (Id. at 124, 128-29). Thus,
even absent Stanton’s testimony that he saw Petitioner shoot the victim, there was adequate
evidence to support the contention that Petitioner was the shooter. Accordingly, Petitioner did
not suffer prejudice-from counsel’s failure to impeach Stanton. See, e.g., Cox v. Horn, 174 F.
App’x 84, 88 (3d Cir. 2012) (petitioner did not suffer prejudice from counsel’s failure to
impeach a witness when other evidence supported the verdict); Alexander v. Shannon, 163 F.
App’x 167, 173 (3d Cir. 2006) (failure to impeach witness regarding mistake of age defense not
prejudicial when evidence showed that petitioner knew victim was underage); Moore-v.
McGrady, No. 11-6285, 2012 WL 6853243, at *12 (E.D. Pa. Dec. 21, 2012), report and
recommendation adopted, No. 11-6285, 2013 WL 1092707 (E.D. Pa. Mar. 14, 2013).
Petitioner also claims that if counsel had reviewed the discovery materials, he would have

%

learned that Hendrick told Officer Flanders that “he did not see anything because he was inside
the house,” and thus, Hendrick “could not” have observed Petitioner with a gun. (Traverse 67,
ECF No. 25). Petitioner argues that trial counsel should have impeached Hendrick’s testimony
with this information. (Hab. Pet. 53, ECF No. 1). Petitioner’s claim is not substantial because
the fact that Hendrick was inside the house at the time of the shooting was introduced at trial.
Officer Flanders testified that Hendrick told her “he was at the front door of the location, he heard gunfire, ran into the house and dialed 911,” but he “[d]id not see it.” (N.T. 11/16/05 at 53- w
54; id. at 121-22). Although counsel did not impeach Hendrick with this information, the jury
still heard testimony that Hendrick told Officer Flanders that he did not see the shooting. Thus,
Petitioner has not established prejudice from counsel’s failure to impeach Hendrick.
Additionally, Petitioner has not established a fundamental miscarriage of justice. Under
Schlup, a gateway claim of actual innocence claim requires “new reliable evidence—whether it
^ . be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
i

evidence—that was not presented at trial.” 513 U.S. at 324. For evidence to be “new,” it must
not have been available at trial. See Hubbard v. Pinchak, 378 F.3d 333, 340 (3d Cir. 2004); see
also Teagle v. Diguglielmo, 336 F. App’x.209, 213 (3d Gir. 2009) (not precedential). However,
in Houck v. Stickman the Third Circuit explained “new evidence” can include evidence that “was
not discovered for use at trial because trial counsel was ineffective ... [if] it is the very evidence

l

4

that the petitioner claims demonstrates his innocence.” 625 F.3d 88, 94 (3d Cir. 2010) (emphasis
added). Courts in this circuit have read Houck narrowly to exclude evidence that counsel
discovered prior to trial, but failed to present at trial. See, e.g., Shoulders v. Eckard, No. 141753, 2016 WL 1237798, at *4 n.5 (W.D. Pa. Feb. 29, 2016), report and recommendation
adopted, No. 14-1753, 2016 WL 1213627 (W.D. Pa. Mar. 29, 2016), certificate of appealability

n

denied (Sept. 6, 2016) (evidence was not new under Houck when it was known to trial counsel at
the time of trial).
The documents Petitioner presents may not be new under Hubbard, as trial counsel
obtained them in discovery. See Reeves v. Coleman, No. 14-1500, 2016 WL 7424265, at *18
(M.D. Pa. Oct. 17, 2016), report and recommendation adopted, No. 14-1500, 2016 WL 7411130
(M.D. Pa. Dec. 22, 2016) (evidence was not new when “trial counsel had that evidence in her
possession at the time of trial”). However, because Petitioner alleges that trial counsel failed to
“adequately review” the discovery materials, the Court assumes arguendo that this evidence is
“new.” Even so, Petitioner has not established that it is more likely than not that no reasonable ~
/

Y juror would have convicted him in light of this “new” evidence. The police statements Petitioner
presents establish that Stanton told Sergeant Przepiorka that he saw a black male “carrying a
black handgun,” and told Officer Walsh that after seeing a black male “carrying a gun,” he
“turned around and ran” and “by the time he got around the comer ... he heard shots.” •
(Traverse 68-70, ECF No. 25). As discussed above, even absent Stanton’s testimony that he saw
Petitioner shoot the victim, Hendrick’s testimony provides sufficient evidence that Petitioner
shot the victim. Thus, Petitioner has not established a fundamental miscarriage of justice under —
Schlup. '
The Court respectfully recommends that Ground Twenty be dismissed as procedurally
defaulted.
11.

Ground Twenty-One: Claims Regarding Alleged Brady Violation

In Ground Twenty-One, Petitioner avers “[Tjravis ^Hendrick] admitted to police officer
Flanders that he did not see any crime happen in view of officer Flanders[’] whole testimony and
his Travis [sic] testimony at trial.” (Hab. Pet. 54, ECF No. 1). Accordingly, he argues counsel

7i

1/

was ineffective for failing to seek a continuance to investigate.

0G

(Id.). He elaborates in his

Traverse that counsel should have hired an investigator to go to the scene of the murder to reveal
that when Hendrick “said he was half-way up the step at trial there is [no] way he saw the
petitioner.” (Traverse 76, ECF No. 25). The Commonwealth does not address this
ineffectiveness claim. (See Resp. to Pet. 39, ECF No. 22).
Petitioner’s claim is procedurally defaulted because it was not fairly or properly
presented to the state courts. See supra Part III.H. Petitioner raises PCRA counsel’s
ineffectiveness as cause, and alleges Officer Flanders’ testimony constituted “newly after
discovered new facts that was unknown to the petitioner when the trial first started[,]” which the
Court construes as raising a fundamental miscarriage of justice. See supra Part III.H; (Traverse,
76-77, ECF No. 25). Both arguments lack merit.
Petitioner has not established cause and prejudice because his underlying ineffective
assistance of trial1 counsel claim.is not substantial. Petitioner argues that counsel should have
requested a continuance to investigate the scene of the murder, in light of: (1) Officer Flanders’
testimony that Hendrick said he did not see the shooting; and (2) Hendrick’s testimony that he

'|ft k»<4t
was halfway up the step when he saw Petitioner pull up in a car. (Hab. Pet. 54, ECF No. 1);
(Traverse 76, ECF No. 25) (citing N.T. 11/14/05 at 116-17). He avers that an investigation
would reveal that if Hendrick was halfway up the step, “there is [no] way that he saw the
petitioner.” (Traverse 76, ECF No: 25). However, there was no need to request a continuance
because trial counsel challenged Hendrick’s, vantage point on cross examination:

0£

Petitioner also reasserts the Brady violation from Ground Five, asserts trial counsel
was ineffective for failing to object during Officer Flanders’ testimony, and asserts trial counsel
failed to seek suppression of “the in court unreliable identification.” These claims are
duplicative of Gmunds Five and Twenty and will not be addressed. (Compare Hab. Pet. 37, 53,
ECF No. 1 with id. at 54).

77

Q: Now, the steps that you are referring to, am I correct they’re
not the outside steps leading into the house?
\

■ A: No.

Q: They’re the steps that are inside the house?
A: Yes.
Q: So you had already gone up the outside steps?
A: No - oh, yeah, I went up the outside steps.

Q: Opened the screen door, storm door; is that right?
A: Yeah.
Q: Gone into the house; is that correct?
A: Yes.
Q: Now, sir, I’ve never had the pleasure of visiting your cousin’s
home. If someone is to open the door and go in, how far do they
have to go before they come to these steps to go upstairs to the
bathroom? A: Not far at all.
Q: Sir, point to something and show the jury how far you have to
go before you’d come to the steps.
A: Right to that computer right there (indicating).

Q: Four to five feet away?
A: Yeah.

Q: Now, the front door is only three to four feet wide, right?

So

I ■

A: I guess you could say that.
Q: How did you see around the brick and stone [exterior of the
house]?
A: I didn’t have to look around the brick and the stone. I could
look straight through the door.
Q: You looked straight out the door, and you saw ... your friend
standing right there?
A: I didn’t see him. I could see the car and [Petitioner] hopping
up right here.

Q: The man that had the gun was moving quickly, right?
A: Yeah.
Q: He wasn’t just strolling up to your cousin, was he?
A: No;

Q: And you got from the middle of the steps[J down the steps,
through the living room, through the kitchen and out the back door
and were in the backyard when the shots were fired; is that right?
A: Yes.
Q: Sir, under those circumstances, you really didn’t see who came
out of the car, did you?
A: Yes, I seen him.
Q: You didn’t have time?
A: Yeah, I seen him.
(N.T. 11/14/05 at 186-91, 198). Although Hendrick still testified that he saw Petitioner, trial
counsel continuously challenged Hendrick’s viewpoint. Thus, trial counsel questioned

*1

Hendrick’s testimony on the very point Petitioner.avers counsel was ineffective for failing tochallenge. Trial counsel was not ineffective for failing to request a continuance to investigate in
the middle of trial, and Petitioner’s claim is not substantial.
Additionally, Petitioner has not demonstrated a fundamental miscarriage of justice.
Petitioner has not demonstrated that Officer Flanders’ testimony is new, reliable evidence under
Schlup. Officer Flanders testified at trial, so her statements are not “new” evidence. See
Hubbard, 378 F.3d at 340; id. at 341 (petitioner did hot satisfy new evidence standard when his
allegedly new evidence was “nothing more than a repackaging of the record as presented at
trial”); Reeves, 2016 WL 7424265, at *17 (“[T]he video of the murder and [petitioner’s]
. confession are not new evidence, as they were the focus of [petitioner’s] trial.”).
The Court respectfully recommends that Ground Twenty-One be dismissed as
procedurally defaulted.
I.

New Claims Asserted in Traverse

In Petitioner’s Traverse, he asserts multiple new claims. These newly-asserted claims are
barred by the statute of limitations. Permitting amendment of the newly-asserted non-co gnizable
claims would be futile, and the remainder of Petitioner’s claims are not subject to equitable
tolling and do not relate back to his timely-filed habeas petition.
1.

Statute of Limitations

Petitioner’s newly-asserted claims are barred by the statute of limitations. AEDPA
imposes a strict one-year time limitation for the filing of any habeas petition. See 28 U.S.C. §
2244(d)(l)(A)-(D). “The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent judgment or claim is pending
shall not be counted toward any period of limitation under this subsection.” Id. § 2244(d)(2).

In this case, the applicable starting point for the statute of limitations is the “conclusion of
direct review or the expiration of the time for seeking such review.” Id. § 2244(d)(1)(A). The
Pennsylvania Supreme Court denied Petitioner’s petition for allowance of appeal on February 5,
2010,'and Petitioner’s judgment of sentence became final on May 6, 20.10, when the time expired
to file a petition for writ of certiorari in the United.States Supreme Court. See S. Ct. R. 13(2);
Morris v. Horn, 187 F.3d 333, 337 n.l (3d Cir. 1999). Therefore, Petitioner had one year from
that date, or until May 6, 2011, to timely file a habeas petition.
With 312 days remaining on the AEDPA clock, petitioner tolled his AEDPA limitations
period from June 28, 2010, when he properly filed his PCRA petition, until July 29, 2015, when
the Pennsylvania Supreme Court denied relief. See 28 U.S.C. § 2244(d)(2). Petitioner filed the
instant habeas petition 75 days later, on October 12, 2015. However, filing a habeas petition
does not operate as an open-ended placeholder for later-asserted claims. .See Rhines v. Weber,
544 U.S. 269, 274-75 (2005). Thus, the statute of limitations continued to run after Petitioner
filed his petition, leaving 237 days, or until June 6, 2016, for Petitioner to file amendments or
timely raise new claims. He did not file his Traverse raising his additional claims until July 8,
2016, thirty-two days after the AEDPA statutory period had expired.
2.

Futility

The Federal Rules of Civil Procedure apply to motions to amend habeas corpus petitions.
United States v. Duffus, 174 F.3d 333, 336 (3d Cir.1999), cert, denied, 528 U.S. 866, (1999)
(citing Riley v. Taylor, 62 F.3d 86, 89 (3d Cir.1995)). Rule 15(a) prescribes that leave to amend
“shall be freely given when justice so requires.” See Foman v. Petitioner yZlX U.S. 178, 182
(1962). Such leave should be denied only in limited circumstances, when, for example,
amendment would be futile. Baker v. Diguglielmo, No. 08-3155, 2009 WL 2973041, at *2 (E.D.

83

Pa. Sept. 15, 2009); Adams v. Lawler, No. 08-3134, 2009 WL 2973038, at *6 n.15 (E.D. Pa.
Sept. 15, 2009). In this context, futility means the petition, as amended, would fail to state a
claim upon which relief could be granted. Baker, 2009 WL 2973041, at *2.
In the instance case, allowing amendment for some of Petitioner’s claims would be futile.
A number of Petitioner’s newly-asserted claims are not cognizable, including: violations of
Pennsylvania Rules of Professional Conduct 1.1, 3.3, 3.8, 5.3, and 8.4 (Traverse Grounds
Twelve, Fifteen, Twenty); a violation of Pennsylvania Rule of Criminal Procedure 573 (Traverse
Ground Seventeen); and a violation of Pennsylvania Rule of Evidence 7.02 (Traverse Ground
Twenty). {See Traverse 49, 58, 60, 74, ECF No. 25). Thus, the Court respectfully recommends
amendment should not be permitted for these non-cognizable claims.
3.

Equitable Tolling and Relation Back

The timeliness provision in the federal habeas corpus statute is subject to equitable
tolling. Holland* Florida, 560 U.S. 631, 648 (2010). Equitable tolling should be used
sparingly, “‘only when the principle of equity would make the rigid application of a limitation
period unfair.”’ Merritt v. Blaine, 326 F.3d 157, 168 (3d Cir. 2003) (quoting Fahy v. Horn, 240
F.3d 239, 244 (3d Cir. 2001)). A litigant invoking the doctrine of equitable tolling bears the
burden of establishing two elements: ‘“(1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstance stood in his way’ and prevented timely filing.” Holland,
560 U.S. at 649 (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). Petitioner has not
argued, and the Court does not find any evidence, that extraordinary circumstances prevented the
timely filing of the claims he newly asserts in his Traverse. Thus, Petitioner has not established
that he is entitled to equitable tolling...
Because Petitioner’s claims are barred by the AEDPA statute of limitations and are not

&f

subject to equitable tolling, the only way the claims may be reviewed is if they “relate back” to
Petitioner’s timely habeas petition. Under Federal Rule of Civil Procedure 15(c)(1)(B), a party
may raise a new, time-barred claim if the claim “arose out of the conduct, transaction, or
occurrence set out—or attempted to be set out—in the original pleading.”29 See Fed. R. Civ. P.
15(c)(1)(B). In discussing what constitutes “conduct, transaction, or occurrence” in the context
of a habeas petition, the Supreme Court has stated that relation back is in order if “the original
and amended petitions state claims that are tied to a common core of operative fact.” Mayle, 545
U.S. at 664; Hodge v. United States, 554 F.3d 372, 378 (3d Cir. 2009). An amended petition
“does not relate back (and therefore escape the AEDPA’s one-year time limit) when it asserts a
new ground for relief supported by facts that differ in both time and type from those the original
pleading set forth.” Mayle, 545.U.S at 650; Hodge, 554 F.3d at 378.
The Court finds Petitioner’s claims do not relate back because each claim requires a
distinct legal and factual analysis:
•

In Traverse Grounds One and Three, Petitioner alleges confrontation violations from trial
court rulings limiting cross examination of Hendrick. (Traverse 11, 13, ECF No. 25).
These claims do not relate back to the due process claims in Grounds One through Three
of the habeas petition; the claims require different legal analyses. Traverse Grounds One
and Three examine whether Petitioner’s Fifth Amendment rights were violated, while the
due process claims challenge evidentiary rulings. See United States v. Thomas, 221 F.3d
430, 436 (3d Cir. 2000) (petitioner cannot'amend petition to add “entirely new claim or
new theory of relief’).. Additionally, the newly-asserted claims do not relate back to the
confrontation claim raised in Ground Five of the habeas petition; that claim challenges
the Commonwealth’s failure to disclose a statement, and raises a confrontation claim
based on different facts.

•

In Traverse Ground Two, Petitioner raises trial and appellate counsel ineffectiveness for
failing to investigate facts underlying Hendrick’s prior conviction. (Traverse 12, ECF
No. 25). This does not relate back to the claim of appellate counsel ineffectiveness for

29 The Court construes Petitioner’s “Traverse” as an attempt to amend the initial habeas
petition. Courts have considered additional “supplemental” filings by habeas petitioners under
the relation back framework. See, e.g., Reid v. Beard, No. 04-2924, 2009 WL 2876206, at *21
(E.D. Pa. Sept. 2, 2009), affd, 420 F. App’x 156 (3d Cir. 2011). .

failing to develop the argument on appeal that the trial court erred in precluding cross
examination of Hendrick regarding his prior conviction. Although both claims concern
Hendrick’s prior conviction, the newly-raised claims concern trial and appellate counsel’s
failure to investigate, and the timely-raised claim in the habeas petition concerns
appellate counsel’s failure to develop an argument on appeal. These claims differ in time
and type.

I

•

In Traverse Ground Four, Petitioner alleges a confrontation violation from the trial
court’s ruling limiting cross examination of Stanton. (Traverse 14, ECF No. 25). This
does not relate back to the due process claim raised in Ground Four of the habeas
petition; the claims require different legal analyses. The confrontation claim alleges
Petitioner’s Fifth Amendment rights were violated, while the due process claim
challenges the trial court’s evidentiary ruling.

•

In Traverse Grounds Seven, Eight, and Twenty, Petitioner alleges trial counsel was
ineffective for failing to call an expert to testify about the unreliability of eyewitness
testimony. (Traverse 18-20, 22, 74, ECF No. 25). This claim does not relate back to the
habeas petition. For instance, Ground Seven of the habeas petition challenges counsel’s
failure to suppress a photo array, and Ground Twenty avers counsel failed to challenge
the unreliability of identification procedures. Although each of these claims challenge
counsel’s conduct, each claim requires a distinct factual analysis. The newly-raised claim
concerns whether counsel ineffectively failed to hire an expert, while the timely-raised
claims examine whether counsel failed to challenge various identification procedures.

•

In Traverse Ground Seven, Petitioner alleges the “[identification was a suggestive
procedure.” (Traverse 20, ECF No. 25). This does not relate back to any claim asserted
in the habeas petition. Ground Seven of the habeas petition alleges trial court error in
admitting a photo array, and that prior counsel were ineffective for failing to.challenge
the photo array. These claims require different legal and factual analyses; the newlyasserted claim avers Petitioner’s due process rights were violated by a suggestive
identification procedure, while the timely-asserted claims concern the trial court’s ruling
that the photo array was admissible and prior counsel’s conduct. Moreover, Traverse
Ground Seven does not relate back to Grounds Twenty or Twenty-One of the habeas
petition, which allege counsel was ineffective for failing to challenge the identification
procedure and for failing to suppress the identification. The newly asserted claim alleges
a due process violation, while Grounds Twenty and Twenty-One examine counsel’s
conduct.

•

In Traverse Ground Eight, Petitioner raises new ineffectiveness claims, including that
counsel failed to: review a video tape, interview witnesses who could corroborate, the
tape, and file a timely notice of an alibi defense. (Traverse 21-24, ECF No. 25). He also
alleges counsel’s failure to prepare prevented him from testifying. {Id. at 24). None of
these new claims relate back to Ground Eight of Petitioner’s habeas petition, which
alleges trial counsel was ineffective for failing to investigate and call Dennis Edwards
and Raheem Sloan as alibi witnesses. The new claims challenge different conduct by
counsel and are based on different facts.

fb

•

In Traverse Ground Nine, Petitioner alleges he was denied his Sixth Amendment right to
a speedy trial. (Traverse 25, ECF No. 25). This does not relate back to the claim that
counsel was ineffective for failing to file a Rule 600 motion. The former raises a speedy
trial claim based on Barker v. Wingo, 407 U.S. 514 (1972), while the latter alleges
counsel was ineffective for failing to assert Petitioner’s speedy trial rights under
Pennsylvania law. Each claim requires a distinct legal theory and factual analysis.

•

In Traverse Ground Twelve, Petitioner raises a Miranda violation and a violation of
Brady v. Maryland, 373 U.S. 83 (1963) regarding the statement taken by Detective Gross.
(Traverse 49, ECF No. 25). These do not relate back to the claims that counsel failed to
suppress the statement taken by Detective Gross or that Petitioner was generally denied
due process. The claims require different legal and factual analyses. The newly-raised
claims allege that Detective Gross committed a violation under the Fifth Amendment,
and that the prosecution failed to disclose the statement in violation of the dictates of
Brady, while the timely-raised claims examine counsel’s conduct and generally raise a
vague due process violation.30

•

In Traverse Ground Fifteen, Petitioner alleges appellate counsel was ineffective for
failing to raise an illegal sentencing claim and/or challenge the constitutionality of the
sentencing statute. (See Traverse 58, ECF No. 25). This does not relate back to
Petitioner’s claims that the trial court lacked authority to impose the sentence, or that trial
counsel was ineffective for failing to challenge the sentencing statute’s legality. The
former claim challenges appellate counsel’s conduct on appeal, while the latter claims
challenge the court’s jurisdiction and trial counsel’s conduct during trial.

•

In Traverse Ground Sixteen, Petitioner alleges appellate counsel failed to properly raise
an issue regarding jury instruction 4.08D on appeal. (Traverse 59, ECF No. 25). This
does not relate back to Ground Sixteen of the habeas petition, which alleges a due process
violation from the trial court’s failure to give jury instruction 4.08D. The former
examines appellate counsel’s performance, while the latter challenges the fact that the
trial court did not give a jury instruction during trial. These claims differ in time and
type.

•

In Traverse Ground Nineteen, Petitioner asserts all prior counsel were ineffective for
failing to challenge the sufficiency of evidence. (Traverse 66, ECF No. 25). This does
not relate back to any claim raised in the habeas petition; no claim raised in the habeas

30 To the extent.the Brady claim does, indeed, relate back to Petitioner’s general
allegation of a due process violation, the Brady claim lacks merit. See 28 U.S.C. § 2254(b)(2).
A petitioner alleging a Brady violation must establish that: (1) evidence was suppressed by the
prosecution, either willfully or inadvertently; (2) the evidence was favorable to the defense,
because it was either exculpatory or impeaching; and (3) the evidence was material,Te., the
omission was prejudicial. Strickler v, Greene, 527 U.S. 263, 281-82 (1999); Brady, 373 U.S. at
87. Petitioner’s statement to Detective Gross, containing only biographic information, was
neither favorable to the defense, nor was it material.

ll

petition mentions the sufficiency of evidence, let alone challenges'counsel’s failure to
challenge the sufficiency of the evidence. ■ • .
•

In Traverse Ground Twenty, Petitioner asserts trial counsel was ineffective for failing to
call Officer Walsh and Sergeant Prezepiorka as witnesses. (Traverse 67, 74, ECF No.
25). This does not relate back to his claim that counsel failed to impeach eyewitnesses
with police reports. A failure to call witnesses differs from a failure to impeach witnesses
who were called at trial.

•

To the extent Petitioner attempts to raise cumulative error by discussing cumulative
prejudice (Traverse 78, ECF No. 25), this does not relate back to any claim. Cumulative
error is a freestanding claim requiring a distinct analysis. See Collins v. Sec ’y of
Pennsylvania Dep’t of Corr., 742 F.3d 528, 541-42 (3d Cir. 2014). Cumulative error was
not asserted in the habeas petition, and does not relate back to any claim raised therein.

Thus, I respectfully recommend these newly asserted claims raised in Petitioner’s Traverse be
dismissed as time-barred.31

IV.

CONCLUSION
For the foregoing reasons, I respectfully RECOMMEND that the petition for writ of

habeas corpus be denied without the issuance of a certificate of appealability.
Therefore, I respectfully make the following:

31

Allowing amendment for many of the claims would also be futile. Before filing his
habeas petition, Petitioner did not present most of these claims in state court. Even if Petitioner
presented these claims in his December 2015 PCRA petition,.the claims are defaulted pursuant to
an independent and adequate state rule. See supra Part III.H. However, because Petitioner
argues cause and prejudice and a fundamental miscarriage of justice throughout his pleadings,
and out.of an abundance of caution, the Court engaged in relation back analysis.

n

[

RECOMMENDATION
AND NOW this

15th day of June, 2018, it is respectfully RECOMMENDED that the

petition for writ of habeas corpus be DENIED without the issuance of a certificate of
appealability.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:

I^NE A. SITARSKI
UNITED STATES MAGISTRATE JUDGE

\

r
: "■?

!•"

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

:

No, 406 EAL 2017

Respondent

n

Petition for Allowance of Appeal from,
the Order of the Superior Court
V.

n

NICHOLAS EDWARDS,
Petitioner
;

ORDER

PER CURIAM
AND NOW, this 9th day of January, 2018, the Petition for Allowance of Appeal is
DENIED.

lJ
l

;

A True Copy
As Of 1/9/2018

John W.W-son Jr., tsquir^
Deputy Prothonotary
Supreme Court of Pennsylvania

90

3-S40035-17
l

non-precedential decision

- SEE SUPERIOR COURT I.O.P. 65.37
IN THE SUPERIOR COURT OF
PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA

v.

1
NICHOLAS EDWARDS
NO. 2760 EDA 2016

Appellant

Criminal Division at No(s): CP-51-CR-1006311-2Q03

BEFORE:

OTT

, DUBOW, 3J., and STEVENS, P.1E.
FILED JULY 06, 2017

MEMORANDUM BY OTT,
Nicholas Edwards appeals pro se from

the order entered August 9,

2016, in the Court of Common Pleas of Philadelphia County , that dismissed
■

•

under the Post-Conviction

Relief Act (PCRA).1 A jury

his second petition
Edwards of murder of the first degree,2 conspiracy,3 and related
convicted
mandatory sentence of life imprisonment.
crimes, and Edwards received a
In this appeal, Edwards raises 10 issues

, including whether the petition is

relief, whether prior
untimely, whether he is entitled to habeas corpus

* Former Justice specially assigned to the Superior Court.
1 42 Pa.C.S. §§ 9541-9546.
2 18 Pa.C.S. § 2502.
J.

3 18 Pa.C.S. § 903.

91

J-S40035-17

counsel were ineffective for various reasons, and whether the trial court
committed reversible error. Based upon the following, we affirm.
The facts of this case are fully summarized in this Court's decision
affirming the judgment of sentence.

See Commonwealth v. Edwards,

r—»

981 A.2d 917 (Pa. Super. 2009) (unpublished memorandum), appeal
denied, 989 A.2d 7 (Pa. February 5, 2010). The procedural history of this
case is set forth in this

Court's decision regarding Edwards' appeal from the

denial of relief on. his first PCRA petition.

See Commonwealth v„

Edwards, 120 A.3d 1043 (Pa. Super. 2015) (unpublished memorandum),
appeal denied, 119 A.3d 350 (Pa. July 29, 2015).
On August 21, 2014, while Edwards' appeal from the denial of relief on
his first PCRA petition was pending in this Court, Edwards filed a habeas
corpus petition, alleging that he was being unlawfully detained due to the
lack of a written sentencing order in contravention of 42 Pa.C.S. §
9764(a)(8).

On March 2, 2015, this Court affirmed the denial of relief on

Edwards' first PCRA petition and, on July 29, 2015, the Pennsylvania
Supreme

Court denied Edwards' petition for allowance of appeal.4

„. Edw,rds, _120 A3d 1043 IJ*. ape'. 2015)
(unpublished memorandum), appeal denied, 119 A.3d 350 (Pa. July 29,

2015).
,

92

J-S40035-17
—t

On December 29, 2015, Edwards filed pro se the instant PCRA petition
- his second. On April 26, 2016, the PCRA court issued a Pa.R.Crim.P. 907
notice of intent to dismiss, explaining the PCRA petition was untimely and
Edwards' claim for habeas corpus relief also failed.
Edwards filed a pro se response to

On May 10, 2016,

the Rule 907 notice, contending that

PCRA statutory exceptions applied to his petition. On August 9, 2016, the
PCRA court dismissed Edwards' PCRA petition and denied the habeas corpus
petition. This appeal followed.5
in the first issue raised in this appeal, Edwards challenges the PCRA

j !

court's determination that the instant petition is untimely.
Our standard of review over the denial of a PCRA petition is well-

s, ■£. -ms

SH,

sr srsrtsr ssz

Commonwealth v. Rainey, 593 Pa. 67, 928 A.2d 215, 223 ( a.
2007)).

Commonwealth v. Mitchell, 141 A.3d 1277, 1283-84 (Pa. 2016).
"It is
nature.
•___ i

"

well-settled that the PCRA's time restrictions are jurisdictional in

Commonwealth v. Robinson, 139^ A.3d 178, 185 (Pa. 2016).

Under the PCRA, any petition for post-

conviction relief, including a second or

subsequent one, must be filed within one

year of the date the judgment of

Pa.R.A.P. 1925(b)
5 The PCRA court did not order Edwards to filed a
statement of errors complained of on appeal.

i__i

93

J-S40035-17
'H

sentence becomes final, unless one of the following exceptions set forth in
42 Pa.C.S. § 9545(b)(l)(i)-(iiO applies:
(b) Time for filing petition.-subsequent^etitio^^al^be filed"w^thi^i"oneyear of tha^e the
judgment becomes final, unless the petition alleges and the
petitioner proves that:
i

(i) the failure to raise the claim previously was the result
of interference by government officials with the
presentation of the claim in violation of the Constitution
or laws of this Commonwealth or the Constitution or laws
of the United States;
(ii) the facts upon which the claim is predicated were
unknown to the petitioner and could not have been
ascertained by the exercise of due diligence; or

I !

(iii) the right asserted is a constitutional right that was
States or
the
provided in this section and has been held by that court
to apply retroactively.
42 Pa.C.S. §

9545(b)(l)(i)-(iii)« Any petition attempting to invoke one of

these exceptions "shall be
...j

filed within 60 days of the date the claim could

have been presented." 42 Pa.C.S. § 9545(b)(2).
Here,

Edwards7 judgment of sentence became final for PCRA purposes

on May 6, 2010, ninety days

after the Pennsylvania Supreme Court's

94

LI

J-S40035-17
••"I

February 5, 2010 denial of allowance of appeal in his direct appeal,6 when
the time for filing a petition for writ of certiorari in the United States
Supreme Court expired.

See 42 Pa.C.S. 9545(b)(3) ("[A] judgment

becomes final at the conclusion of direct review, including discretionary
review in the Supreme Court of the United States and the Supreme Court of
r 1

Pennsylvania, or at the expiration of time for seeking the review.).

U.S.

Sup. Ct. R. 13. Therefore, Edwards had until May 6, 2011, to file a timely
petition.

Since the instant petition was filed on December 29, 2015, it is

patently untimely and cannot be reviewed unless one of the statutory
exceptions applies.
Edwards, in his response to the PCRA court's Rule 907 notice and in
his brief to this Court, cites the PCRA exceptions set forth at 42 Pa.C.S. §
9545(b)(l)(i) and (ii). The PCRA court analyzed Edwards' petition in light of
these statutory exceptions, as follows:

U.-i

Although [Edwards'] instant petition contains language reciting
portions of the PCRA's statutory time-bar, he failed to
meaningfully plead any of the exceptions enumerated within it.
Instead, [Edwards] primarily presented allegations of counsel
malfeasance sparsely interwoven with fragmented, undeveloped
references to the time-bar. [Edwards'] attempt to raise layered
claims of ineffectiveness was therefore insufficient to satisfy his
burden
of proof -under
section
9545(b)(1).
See
Commonwealth v. Wharton, 886 A.2d 1120, 1127 (Pa. 2005)
C"[i]t is well settled that allegations of ineffective assistance of
6 See Commonwealth v. Edwards, 981 A.2d 917 (Pa. Super. 2009)
(unpublished memorandum), appeal denied, 989 A.2d 7 (Pa. February 5,

2010).
95
U

J-S40035-17
counsel will not overcome
requirements of the PCRA.").

the

jurisdictional ' timeliness

- -i

Moreover, despite accurately echoing our Supreme Courfs
uneasiness regarding the difficulty of challenging PCRA counsels
performance in practice, [Edwards'] contention that his petition
should be deemed timely filed because he is challenging the
effectiveness of his original post-conviction counsel has been
unequivocally rejected. See Commonwealth v, Robinson,
139 A.3d 178, 186 (Pa. 2016) Q'This Court has never suggested
that the right to effective PCRA counsel can be enforced via an
untimely filed PCRA petition.").

"!

(•
r7

Finally, even if counsel malfeasance composed the timeliness
exception, [Edwards] failed to file his instant petition within sixty
days from the conclusion of appellate review on July 29, 2015.1171
See 42 Pa. Cons. Stat. § 9545(b)(2) (requiring any petition
invoking one or more of these exceptions must be filed within 60
days from the date that the claim could have been presented).
[Edwards] therefore failed to sufficiently invoke an exception to
the PCRA's statutory time-bar.
PCRA Court Opinion, 11/10/2016, at 4-5 (footnotes omitted).
Based on our review of the. record and the arguments of Edwards, we
agree with the PCRA court's well-reasoned assessment. Accordingly, we
conclude Edwards' petition fails to overcome the PCRA time-bar.

Li

7 Edwards claims that on August 4, 2015 — within 60 days of the
Pennsylvania Supreme Court's July 29, 2015 denial of allowance of appeal
oh his first PCRA petition — he mailed a second PCRA petition that was lost
in the mail. Edwards relies on the "prisoner mail box rule" to argue his
petition "is deemed timely regardless if it reaches the court." Edwards' Brief
at 5.
This assertion, however, does not help Edwards since he failed to
satisfy any PCRA statutory exception.
! !

Li

J

96

J-S40035-17
In his second issue, Edwards maintains the PCRA court erred in
denying him habeas corpus relief.

8

Our standard of review regarding a writ

of habeas corpus is weli-settled:

n

Our standard of review of a trial court's order denying a petition
for writ of habeas corpus is limited to abuse of discretion. Thus,
we may reverse the court's order where the court has misapplied
the law or exercised its discretion in a manner lacking
reason. As in all matters on appeal, the appellant bears the
burden of persuasion to demonstrate his entitlement to the relief
he requests.
Rivera v. Pa. Dep’t of Corn, 837 A.2d 525, 528 (Pa. Super. 2003)

(citations omitted).
Edwards claims his detention is unlawful because "there [are] no
records that exist relating to a lawful [] sentencing order[.]" Edwards' Brief
at 8. See also Edwards' Petition for Writ of Habeas Corpus, 8/21/2014, at
H8. Edwards cites 42 Pa.C.S. § 9764(a)(8), which provides:
§ 9764. Information required upon commitment and
subsequent disposition
(a) General rule. — Upon commitment of an inmate to the
custody of the Department of Corrections, the sheriff or
transporting official shall provide to the institution's records
officer or duty officer, in addition to a copy of the court
commitment form DC-300B generated from-the Common Pleas

8 Contrary to the claim in Edwards' brief that the PCRA court "changed" his
petition for writ of habeas corpus "to a post-conviction relief act petition,"
the PCRA court's orders and opinion reflect the PCRA court treated the
habeas corpus petition as the proper vehicle for Edwards' illegal detention
claim. Edwards'Brief at 8.

'Ll

Li

97

J-S40035-17
r*<

Criminal Court Case Management System of the unified judicial
system, the following information:

(8) A copy of the sentencing order and any detainers filed
against the inmate which the county has notice.
r—*

42 Pa.C.S. § 9764(a)(8).

r.

In Joseph v. Glunt, 96 A.3d 365 (Pa. Super. 2014), this Court
rejected the very same argument:
The language and structure of section 9764, viewed in context,
make clear that the statute pertains not to the DOC's authority '
to detain a duly-sentenced prisoner, but, rather, sets forth the
procedures and prerogatives associated with the transfer of an
inmate from county to state detention. None of the provisions of
section 9764 indicate an affirmative obligation on the part of the
DOC to maintain and produce the documents enumerated in
subsection 9764(a) upon the request of the incarcerated persoh.
Moreover, section 9764 neither expressly vests, nor
implies the vestiture, in a prisoner of any remedy for
deviation from the procedures prescribed within.
Id. at 371 (emphasis added).

i •

The Joseph Court found persuasive cases

that "deemed a record of the valid imposition of a sentence as sufficient
authority to maintain a prisoner's detention notwithstanding the absence of
a written sentencing order under 42 Pa.C.S. § 9764(a)(8)." Id. at 372. In
Joseph, the criminal docket of the trial court and the transcript of the
sentencing hearing confirmed the appellant's sentence. Id. at 372.
Here, as in Joseph, the certified record confirms Edwards'judgment
of sentence.

As the PCRA court explained:

"Upon reviewing the criminal

docket through the Common Pleas Case Management System, the sentence

98
P •

t-.,

J-S40035-17
.....

imposed by the Honorable Kathryn Lewis on February 3, 2006 was
f

accurately docketed by the Clerk of Courts of [the Court of Common Pleas of
Philadelphia County.].

PCRA Court Opinion, 11/10/2016, at 6. Therefore,

Edwards7 argument fails to warrant habeas corpus relief.
Having concluded the PCRA petition is untimely, and that no exception
applies to overcome the PCRA time-bar, there is no jurisdiction to address
Edwards7 remaining claims. Accordingly, we affirm.
i—>

Order affirmed.
judgment Entered.

iM
«
i

’

i

’

Joseph D. Seletyn, Estys'
Prothonotary

if

!

Date: 7/6/2017

Li

Li

99

!!

COURT OF COMMON PLEAS OF PHILADELPHIA COUNTY
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CRIMINAL TRIAL DIVISION
_i

COMMONWEALTH OF PENNSYLVANIA
i

v.
.■

CP-51-CR-1006311-2003
2760 EDA 2016

NICHOLAS EDWARDS

~!

OPINION

I 1

LEONW. TUCKER, J.
This appeal comes before the Superior Court following the dismissal of a PostConviction Relief Act (“PCRA”)1 petition filed on December 29, 2015 and prior petition for writ
;

•

of habeas corpus.2 On August 9, 2016, this court dismissed the PCRA petition and denied

p

habeas corpus relief for the reasons set forth below.
I. PROCEDURAL HISTORY
On November 21, 2005, following a jury trial presided over by the Honorable Kathryn S.
Lewis, Nicholas Edwards (hereinafter referred to as “Petitioner”) was convicted of first-degree

j

murder, conspiracy, carrying a firearm without a license, and possessing an instrument of crime.
On February 3, 2006, Petitioner was sentenced to life imprisonment on the murder conviction
and lesser terms of incarceration on the remaining charges. On July 28, 2009, following the
reinstatement of appellate rights nunc pro tunc, the Superior Court affirmed the judgment of
sentence.3 The Pennsylvkna Supreme Court denied a/foatfwr on February 5,2010.4

l

LJ

'

42 Pa. Cons. Stat. §§ 9541-9546.
2 Petitioner’s “Petition for Writ of Habeas Corpus,” filed August 21, 2014, predated his PCRA
petition.
3 Commonwealth v. Edwards, 981 A.2d 917 (Pa. Super. 2009) (unpublished memorandum).
4 Commonwealth v. Edwards, 989 A.2d 7 (Pa. 2010).
100

Li

On July 28, 2010, Petitioner timely filed his first pro se PCRA petition. Counsel was
!'T

appointed and subsequently filed an amended petition. After conducting evidentiary hearings,
the PCRA court denied the petition on April.23, 2014. The Superior Court affirmed the order

n
denying relief on March 2, 2015.5 The Pennsylvania Supreme Court denied allocatur on July 29,
r’

2015.6
On December 29, 2015, Petitioner filed the instant pro se PCRA petition, his second.
Pursuant to Pennsylvania Rule of Criminal Procedure 907, Petitioner was served notice of the
lower court’s intention to dismiss his petition on April 26, 2016. Petitioner filed a response to
the Rule 907 notice on May 10, 2016. On August 9, 2016, this court dismissed his PCRA
petition as untimely and denied habeas corpus relief.7 On August 24, 2016, the instant notice of
appeal was timely filed to the Superior Court.

i :

II. FACTS
At trial, testimony showed that on July 2,2003, Travis Hendrick and the decedent, Xavier
Edmunds were standing outside 2838 Jasper Street in Philadelphia when Petitioner attacked
Hendrick with a baseball bat, warning the two avoid traveling on his block. As a result of that
assault, Hendrick's elbow had to be surgically replaced. N.T., 11/14/05 at 132-37, 218, 226;
11/15/03 at 153.
Two days later, on July 4, 2003, at about 9:00 p.m., Edmunds was standing outside 2838
Jasper Street with several friends, including Hendrick and Walter Stanton. A vehicle pulled up
i

with Petitioner, pointing a gun at the group through an open window, seated in the rear on the

5 Commonwealth v. Edwards, 120 A.3d 1043 (Pa. Super. 2015) (unpublished memorandum).
6 Commonwealth v. Edwards, 119 A.3d 350 (Pa. 2015).
7 The Honorable Leon W. Tucker issued the order and opinion in this matter in his capacity as
Supervising Judge of the Criminal Section of the Court of Common Pleas of Philadelphia - Trial
Division, as of March 7, 2016, as the trial judge is no longer sitting.

101

driver's side. Petitioner exited the vehicle and fired two shots at Edmunds, who collapsed to the
pavement. Petitioner returned to the vehicle which then drove away. When Hendrick saw
Petitioner arrive and noticed that he was armed, he immediately went into the house and called
the police. N.T. 11/14/95 at 113-16, 233-34; 11/16/05 at 159-63,172.
Police arrived at the scene within several minutes. They drove Edmunds to a local
hospital where efforts to save his life failed. He was pronounced dead at 9:21 p.m. Based upon
P

information provided by Hendrick and Stanton, police obtained a warrant for Petitioner’s arrest.
n
I ;

He was located in South Carolina several weeks later and extradited to Philadelphia. N.T.
11/14/05 at 239; 11/16/05 at 12,157-76; 11/17/05 at 152,158,165,187-88.
m. DISCUSSION
A. Petitioner’s current PCRA petition was manifestly untimely.

u

Petitioner’s instant petition raising claims of trial court error, prosecutorial misconduct,
and ineffective assistance of counsel was facially untimely. As a prefatory matter, the timeliness
of a PCRA petition is a jurisdictional requisite. Commonwealth v. Robinson, 12 A.3d 477 (Pa.
Super. 2011). A PCRA petition, including a second or subsequent petition, shall be filed within
one year of the date the underlying judgment becomes final. 42 Pa. Cons. Stat. § 9545(b)(1). A

J

judgment is deemed final “at the conclusion of direct review, including discretionary review in
the Supreme Court of the United States and the Supreme Court of Pennsylvania, or at the
/

expiration of time for seeking the review.” Id. § 9545(b)(3).
-J

Petitioner’s judgment of sentence became final for PCRA purposes on April 5, 2010,
ninety days after the Pennsylvania Supreme Court denied allocatur and time period for filing a

Li

petition for writ of certiorari in the United States Supreme Court expired. See id; U.S. Sup. Ct.

102

L
J

r-r

f'i

R. 13 (effective January 1, 1990).

Petitioner’s petition, filed on December 29, 2015 was

therefore untimely by approximately four years. .See 42 Pa. Cons. Stat. § 9545(b)(1).

n

B. Petitioner was not eligible for a limited timeliness exception found in 42 Pa. Cons.
Stat. § 9545(b)(l)(i)-(iii).
Despite the one-year deadline, the PCRA permits the late filing of a petition where a
petitioner alleges and proves one of the three narrow exceptions to the mandatory time-bar found
in subsections 9545(b)(l)(i)-(iii).

To invoke an exception, a petition must allege and the

petitioner must prove:
(i) the failure to raise the claim previously was the result of interference by government
officials with the presentation of the claim in violation of the Constitution or laws of this
Commonwealth or the Constitution or laws of the United States;
(ii) the facts upon which the claim is predicated were unknown to the petitioner and could
not have been ascertained by the exercise of due diligence; or
(iii) the right asserted is a constitutional right that was recognized by the Supreme Court
of the United States or the Supreme Court of Pennsylvania after the time period provided
in this section and has been held by that court to apply retroactively.
r

Id § 9545(b)(l)(i)-(iii).
Although Petitioner’s instant petition contains language reciting portions of the PCRA’s
statutory time-bar, he failed to meaningfully plead any of the exceptions enumerated within it
: I

Instead, Petitioner primarily presented allegations of counsel malfeasance sparsely interwoven
with fragmented, undeveloped references to the time-bar. Petitioner’s attempt to raise layered
claims of ineffectiveness was therefore insufficient to satisfy his burden of proof under section
_i

9545(b)(1). See Commonwealth v. Wharton, 886 A.2d 1120, 1127 (Pa. 2005) (“it is well settled
that allegations of. ineffective assistance of counsel will not overcome the jurisdictional
• timeliness requirements of the PCRA.”).

103

/,

I—'

r~

Moreover, despite accurately echoing our Supreme Court’s uneasiness regarding the
difficulty of challenging PCRA counsel’s performance in practice,8 Petitioner’s contention that
his petition should be deemed timely filed because he is challenging the effectiveness of his
original post-conviction counsel has been unequivocally rejected.9 See Commonwealth v.
Robinson, 139 A.3d 178, 186 (Pa. 2016) (“This Court has never suggested that the right to
effective PCRA counsel can be enforced via an untimely filed PCRA petition.”).
Finally, even if counsel malfeasance composed the timeliness exception, Petitioner failed
to file his instant petition within sixty days from the conclusion of appellate review on July 29,
2015. See 42 Pa. Cons. Stat. § 9545(b)(2) (requiring any petition invoking one or more of these
exceptions must be filed within 60 days from the date, that the claim could have been presented).
Petitioner therefore failed to sufficiently invoke an exception to the PCRA’s statutory time-bar.
C. Petitioner was not entitled to habeas corpus relief based upon the Department of
Corrections’ lack of a written sentencing order.
This court did, however, evaluate Petitioner’s claim that the Department of Corrections
(“DOC”) lacked legal authority for his continued detention due to the lack of a written
sentencing order, in contravention of 42 Pa. Cons. Stat. § 9764(a)(8) (relating to information
required upon commitment and subsequent disposition), and 37 Pa. Code § 91.3 (reception of
inmates). See Joseph v. Glunt, 96 A.3d 365 (Pa. Super. 2014) (concluding that the PCRA did not

i

subsume an illegal-sentence claim based on the inability of the DOC to produce a written

j._i

8

i

■

...-i

In Commonwealth v. Holmes, 79 A.3d 562 (Pa. 2013), our Supreme Court opined that “there is
no formal mechanism in the PCRA for a second round of collateral attack focusing upon the
performance of PCRA counsel, much less is there a formal mechanism designed to specifically
capture claims of trial counsel ineffectiveness defaulted by initial-review PCRA counsel.”
Holmes, 79 A.3d at 583—584. The Holmes Court continued that it “has struggled with the
question of how to . enforce the ‘enforceable’ right to effective PCRA counsel within the
strictures of the PCRA, as the statute was amended in 1995.” Id. at 584.
9 See PCRA petition, 12/29/15 at 21.

i_;

•

104

r

n
;

ft

«

r ■! '

sentencing order).

H

Upon reviewing the criminal docket through the Common Pleas Case

Management System, the sentence imposed by the Honorable Kathryn Lewis on February 3,
2006 was accurately docketed by the Clerk of Courts of this court. The Superior Court of

r-7

Pennsylvania has held that even when the DOC lacks possession of a written sentencing order, it
has continuing authority to detain a prisoner. Id. at 372.
i
r

IV. CONCLUSION
Mr. Edwards’ renewed efforts to obtain collateral relief were unavailing. Petitioner failed

to demonstrate that his PCRA petition satisfied an exception to the PCRA’s statutory time-bar.

;•

Petitioner’s alternative challenge to the legality of his detention, although reviewed outside the

;"i
t

framework of the PCRA, was nevertheless meritless. Accordingly, for the reasons stated herein,
the decision of the court dismissing the PCRA petition and denying habeas corpus relief should

\

/

9

be affirmed.

?

4

ft

s
.. J

BY THE COURT:
j

y

LEONW. T
)

i.j

r

105

j

—i

, J. 7NV

•O

s

S?

CNl

•—

■s

8;

cci

o 32

s ~
CD

g
>O
<z
I

oi '

1

>-

cn i

o

g

g

<
>?

m

2

o

o
ee

fN

z

56

2

ia

CC

>

u.

acL

z

8

LU

U

8

<
1

3

x

3a

3
ft

8

iLf

O

o

1/1

£

§
5
2

0

o

=

£

x

Q
6

re
U

I

I

u

2

VI

g

ft
UJ

l

<

| < u

§ *

??: '

1

£

O

2 I

•s
SE

s
-1

I

Hi 1 SI '
;"h

3

£

«

» a <

a

11

S'

>-0

a

li £

•Is
I §ls
2 £ S £ ?aa

£•

- £ 2

S ~ Q

S

5 s

' I5 £l
■o

■

T3

£ *
-S

*”

111 -5

i 1 -IIg
g

01

g I 3

>

5^ 2 1
E| ga
11 fS

I I I S1 1
1 e. MI I

5z

Is

&
I M
&
S S-vjjji
I z'rfe]

li i 113 « «i=s 53 ug
ii 11 ?S5 ! flf-ia
I .Ii

3

o

re
o>
Q.

31

•

S:'

-S £

'S

§
o

I
« s!
| 1

I 3

ii

01

g

o

G
£

a

i!

=' JOsc
IU

8 £
S =

H
11

■o

*D

* o
-g 2

SI

3 s

o

O

a

S1

1

I

s| s

II
s I

S.

Q

2 | |£ f
12 ia *1 £ Jc

LLi

I
:!

s

I

ac

ill!
=
|“•

1

S

ni
1 I 11

2

.£

3

1 a a|

1 £

8

OJ

LL

z

<
<✓>

•I
>
|-

'

2 1B

<

m
O

ft

G

• £^

3

is ■is
H

J
I

I

s It
Ml
l-11
... s 2

'§ I5

2

*a

e ■& S

<u

* S

Sy

|If II

1

!S! ||

I"

i* Mill

rJ g

- £ S

= 2

!

«
\o
o

'i

•*
to .S3 g

3 8 OT

i
3

111
e: I

I

S-S3
:is 2 -s
b - -T3

III
o d

o

S’ - -3

s
m
vo

5
O

O

u

p

ai

111

53

5gw

l|pll
i 3 S. S s 'B

os=.So^S^r£5§£

113 £ s!

^ i f ^ 3-

. jjsiiM l£-fi31I5lllfl?
11 iiisfs iiimiiitii!!?
Iillll
l!i!l"!l!l|ll!!
| g.S^'S 5 SB I a if
fe-St

! lift!! lliilfil
5

: r

tj

|^'2'S£|'

I

c

< ^

a! .1 | :l "1**^ I £1 S 2

m

3 £ 2 SN S

o s

0 =

I? e.ll-i.1

ill* 11 tlliig. IlilisIS5

O 0-

S'

c

<
o?

IS

^|!i ilBIs 1 l»i tl PII!lllI«i!IS!tlIl!S!i

o -5

n

Q 5 Z

Se9
SUMH-a
SioiSa
u. h o. H - a.

j

a

“I

5og

l.J

is

| p I «-§ ll|^
Ml .foII al!liltM^|*HII|H||||l
I!2.i £§.§1
I

S g g i i 5-

LJ

S
o
y

=«

3§

B§l

5|.a|-g.s

I!|l§”15s5!l!|s

Hi. jj linn iiiwiniiiisii
1§ 1 nii
ii
iitiii
mm
mm
II
ill! n ilifi! laiti^l^ii-!inn
i 3'«

is

U
Di ■

1|1.s,|£

^‘osSo2i

s-» i||£l 1 i:-ls|||silgSilss
21 f • ' 38,

UJ

<

5'
2
2

p§i
is'si s

l

g3 c

D

5

5

J•B

O

o

3

1

Hss
gzf

1

8|S = 5* ?!^££S“
s »S32^

ZOMtS

M

o

<

t—

Q

> &

o ff|

x|

H I

s c^-i = a si o

S

>, «

bly^§o?

0;

b

i;
!,
,!

Ii'
o o
Oi U

y
5'

)

t

>1, .

g

ih
M I 1

d! ? I
III 8 s

5

i

c

§,

.1
i

£
V

\Q

£

o
rvj
ff)

£

iA

a

CO
OJ

TO

_C

o

f
* i

to

OJ
CUD

11111

a<

HI" = 1
flliil
!!II!
I i i I ? i. 1 I I = M
mm lulu
linn mil!
111111 Hint
I■! 11{111111i 1H

ii11!I,.
H: !Iiii
i!iill!i
i!11111s
! i II11! 1
{HI;!11

i

I m 1. m 1 *

•S s

1.1 j |! I 11 i 1111 11 1111!! & *
| | | i ! s = | ! I! !

.=

!! 11 * 11

"O

■ I! 111! 111! 11111 !!! !i |

I

Its

I
<u

z

I
c

TO

I g
- I

'o

2

“

ill
z 2 £

% I i
£ £' S
I I g
§' ° !
5^8

*I 2

f

h 1

"e S.
s Si

111 -H ff! S 11! 11! ■ illlilll i11=
j Si1»11 I! I f S = i»iI j! s a |!! I

1 iiii !MI !Ml
IH I III!!
2 I s I ! | I s s s I I ii
% in!
1 § I I 1 I ! l .1 ! s | I
? i

03

S" I 1

s

Qp

TO

5 I

Ilf
HI
s ! §

2 S

§

111
s;

i
?
5
I

*■

t.j

•=

1-5
! i
g I
* ■

j

in

l__ I

_!

